<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 115-668]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-668

                              NOMINATIONS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING THE NOMINATIONS OF MITCHELL ZAIS, OF SOUTH CAROLINA, TO BE 
   DEPUTY SECRETARY, AND JAMES BLEW, OF CALIFORNIA, TO BE ASSISTANT 
SECRETARY FOR PLANNING, EVALUATION, AND POLICY DEVELOPMENT, BOTH OF THE 
 DEPARTMENT OF EDUCATION, AND KATE S. O'SCANNLAIN, OF MARYLAND, TO BE 
SOLICITOR, AND PRESTON RUTLEDGE, OF THE DISTRICT OF COLUMBIA, TO BE AN 
          ASSISTANT SECRETARY, BOTH OF THE DEPARTMENT OF LABOR

                               __________

                           NOVEMBER 15, 2017
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
27-684 PDF                 WASHINGTON : 2019        



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia			ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky			AL FRANKEN, Minnesota
SUSAN M. COLLINS, Maine			MICHAEL F. BENNET, Colorado
BILL CASSIDY, M.D., Louisiana		SHELDON WHITEHOUSE, Rhode Island
TODD YOUNG, Indiana			TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah			CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas			ELIZABETH WARREN, Massachusetts
LISA MURKOWSKI, Alaska			TIM KAINE, Virginia
TIM SCOTT, South Carolina		MAGGIE HASSAN, New Hampshire
                                     
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                 Evan Schatz, Democratic Staff Director
             John Righter, Democratic Deputy Staff Director


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      WEDNESDAY, NOVEMBER 15, 2017

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     3
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    18
Hassan, Hon. Maggie Wood, a U.S. Senator from the State of New 
  Hampshire......................................................    20
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......    21
Casey, Hon. Robert P. Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    23
Murphy, Hon. Christopher S., a U.S. Senator from the State of 
  Connecticut....................................................    25

                               Witnesses

Statement of Brigadier General Mitchell Zais, USA (Ret.), of 
  Columbia, SC, Nominated to be Deputy Secretary, Department of 
  Education......................................................     5
    Prepared statement...........................................     7
Statement of James Blew, of Valencia, CA, Nominated to be 
  Assistant Secretary for Planning, Evaluation, and Policy 
  Development, Department of Education...........................     8
    Prepared statement...........................................     9
Statement of Kate O'Scannlain, of Chevy Chase, MD, Nominated to 
  be Solicitor, Department of Labor..............................    10
    Prepared statement...........................................    11
Statement of Preston Rutledge, of Washington, DC, Nominated to be 
  Assistant Secretary of Labor for the Employee Benefits Security 
  Administration, Department of Labor............................    12
    Prepared statement...........................................    14

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Letters of Support for Preston Rutledge......................    33
    Letter of Support for Kate O'Scannlain.......................    37

 
                              NOMINATIONS

                              ----------                              


                      Wednesday, November 15, 2017

                                       U.S. Senate,
                    Committee on Health, Education, Labor, 
                                              and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Young, Murray, 
Casey, Franken, Murphy, Kaine, and Hassan.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Today we're holding a confirmation hearing on Brigadier 
General Mitchell Zais to be Deputy Secretary of the Department 
of Education; James Blew to be Assistant Secretary for 
Planning, Evaluation, and Policy Development at the Department 
of Education; Kate O'Scannlain to be Solicitor of the 
Department of Labor; Preston Rutledge to be Assistant Secretary 
of Labor for the Employee Benefits Security Administration at 
the Department of Labor.
    Senator Murray and I will each have an opening statement.
    Senator Hatch wants to come by, Mr. Rutledge, to introduce 
you. He is presiding over the writing of the tax bill, so 
whenever he comes I'm going to stop whatever I'm doing and let 
him make comments about you, and then we'll proceed.
    After Senator Murray and I have our opening statements, 
we'll each have an opportunity to ask--we'll have a round of 5 
minutes. We'll hear from the nominees, and then we'll have a 
round of 5-minute questions.
    I'm glad the Committee has the opportunity to hear from 
these important nominees, and we welcome them, and we welcome 
their families who are here.
    I especially welcome the nominee for the position of Deputy 
Education Secretary. If confirmed, General Zais will be 
Secretary DeVos' number 2 at the Department, and it brings back 
some very fond memories for me because President Bush recruited 
David Kearns, who was the CEO of Xerox, to be in that position, 
General Zais, when I was Education Secretary. I knew it would 
be hard to persuade him because he was one of the country's 
chief executives of a major corporation, and his friends said 
why would you take all of the abuse to take a secondary 
position in a small department. President Bush recruited him. 
They were both World War II veterans, respected one another. 
David came on board. He had such enthusiasm, skill and 
leadership that all the employees loved him. He found a great 
many career employees who, as you and I discussed, who were 
just looking forward to that kind of leadership, as I'm sure 
you will find, and he helped to recruit a distinguished team.
    I used to talk about him, and I still do. When I was 
running for president in 1995, something I didn't succeed in, I 
was in Utah and I was talking about David Kearns and what a 
fine person he was. I thought I made a pretty good speech, and 
after I finished a lady came up to me and said, ``That was a 
wonderful speech, now I know who ought to be President of the 
United States.'' I said, ``well, thank you.'' She said, ``Yes, 
David Kearns.''
    [Laughter.]
    The Chairman. So good luck to you.
    That's an important position, and I know that you will be a 
valuable and important part of the leadership following your 
confirmation. You have a broad background. You've been the 
Chief State Superintendent for South Carolina's public schools. 
You spent 10 years as a college president. You were a member of 
the South Carolina Commission on Higher Education, a subject 
that this Committee will be turning its attention to shortly 
and has been working on for the last three or 4 years. After 31 
years in the U.S. Army, you retired as a brigadier general.
    You were nominated on October 5. On October 30, the 
Committee received your paperwork; on November 9 the Office of 
Government Ethics paperwork, including public financial 
disclosure and ethics agreement.
    James Blew is nominated for an important position, to help 
the Secretary develop policies at the Department, to help 
manage the budget, ensure that programs are working as 
intended, especially important since we just completed, not 
long ago, a major restructuring of the Elementary and Secondary 
Education Act, and implementing that as Congress wrote it will 
be a major task of the Department and of yours.
    For the last month Mr. Blew has been Special Assistant to 
the Education Secretary. For 20 years he has advocated 
improving educational opportunities for families and children, 
overseeing grants to low-income, high-risk schools.
    He was nominated on September 28. On October 10, we 
received his ethics paperwork; November 2nd, we received his 
Committee paperwork.
    We have two important Labor Department nominees. Kate 
O'Scannlain has been nominated to serve as the Labor 
Department's Solicitor. She'll be involved in every area of the 
Department's work, from regulations to litigation. The 
Department is reviewing two Obama administration rules that, in 
my opinion, need to be fixed, first the overtime rule. My 
concerns are the rapid rate of increase. The salary threshold 
was set to double overnight, it seemed, and the harm it would 
cause staff at non-profits, at church camps, students at 
colleges and universities. Second, the fiduciary rule will make 
it harder for many middle-income Americans to get retirement 
and financial aid they need.
    Ms. O'Scannlain is a partner in the Washington, DC law firm 
of Kirkland and Ellis, where her practice focuses on employment 
and labor law.
    She was nominated October 15. We received her ethics 
paperwork October 17; her HELP paperwork on October 17.
    Preston Rutledge is nominated for Assistant Secretary for 
the Employee Benefits Security Administration, where he will 
help administer and enforce Title 1 of the Employee Retirement 
Income Security Act, which protects the interests of Americans 
participating in employee pension and welfare benefit plans. He 
serves as Senior Tax and Benefits Counsel for the U.S. Senate 
Finance Committee under Chairman Hatch. He previously served as 
a Senior Tax Law Specialist at the IRS, Senior Technical 
Reviewer in the Qualified Pension Plans branch of the IRS 
Office of Chief Counsel.
    He was nominated October 16. We received his Committee 
paperwork October 25th; his ethics paperwork on the 30th.
    I look forward to hearing from our witnesses.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you, Chairman Alexander.
    First I want to thank our nominees and their families 
behind them for being here today and for your willingness to 
serve in these critically important roles at the Department of 
Education and Labor.
    At a time when a lot of families are still struggling to 
make ends meet all of you are going to be responsible for 
standing up for students and workers and fighting for their 
educational opportunities and financial security. In today's 
economy, housing and health care and higher education costs are 
on the rise, and wages have remained stagnant. While the middle 
class is struggling to make ends meet, corporations and 
billionaires are making record profits off the backs of their 
employees and working families.
    So I'm disappointed, although not surprised, that President 
Trump has broken his campaign promises and has now put 
corporations and special interests ahead of our middle-class 
families by rolling back retirement and overtime standards for 
our workers and protections for students and borrowers.
    So I look forward to hearing from each of you if you will 
stand up for students and workers and families and the missions 
of the agencies you've been nominated to serve with, or if you 
plan to just be a rubber stamp for President Trump's agenda.
    But first I want to talk about just how widespread the harm 
the Trump administration has caused to our students and workers 
and what the Departments of Education and Labor should be doing 
to help working families.
    General Zais and Mr. Blew, since taking office Secretary 
DeVos has promoted her privatization agenda to siphon taxpayer 
dollars away from our public schools. Despite hearing from 
parents across the country who have stood up and spoken out 
about the importance of investing in and supporting and 
strengthening our public schools in their communities, she is 
proposing major cuts to our education investments and is 
failing to implement our bipartisan Every Student Succeeds Act 
the way Congress intended by approving state plans that do not 
comply with all the guardrails and that may result in our most 
vulnerable students falling through the cracks. She has rolled 
back protections for defrauding students, making it easier for 
predatory for-profits to prey upon students, and her record on 
protecting students' civil rights, including survivors of 
sexual assault, has been very troubling.
    The Department of Education's core mission is to stand up 
for our students, so it's disappointing to me that Secretary 
DeVos has decided to go a different direction and put ideology 
and the wishes of for-profit colleges ahead of our students and 
our teachers and our public schools.
    Ms. O'Scannlain and Mr. Rutledge, I'm sure you both 
remember one of the biggest promises President Trump made 
constantly on the campaign trail was to put workers first. Yet, 
since day 1, he has undermined health and safety protections 
for our workers and made it harder for working families to 
become financially secure during their working years and into 
retirement, including not defending the Obama administration's 
overtime rule, which would give 13 million workers a raise by 
ensuring they are paid for the extra hours that they work.
    It is the responsibility of the Department of Labor to 
advocate for our workers to make sure they are being treated 
fairly and are able to make a decent living.
    So to both of you, I hope you are prepared to discuss how 
you plan to stand up to President Trump, or if you do, when he 
prioritizes corporations and special interests over workers, 
and how you plan to live up to the mission of the agency and 
truly make sure that workers' rights are respected.
    I'd like to discuss some of my initial concerns that I'd 
like the four of you to address today.
    General Zais, given Secretary DeVos' lack of experience and 
track record, it is clear she needs a deputy who is committed 
to students and public education. So to me it was troubling 
that you share her views on privatization, and you've made a 
number of comments that make me question your ability to help 
set a course for this agency based on facts and science and 
evidence, including that ``5-year-olds are too young to 
learn,'' and that ``abstinence-only sex education and 
creationism should be taught in our schools,'' and your 
decision as South Carolina's State Superintendent to reject 
Federal funding that would benefit students and teachers in 
public schools. It really makes me question whether you would 
act based on what is good for students.
    Mr. Blew, the Department of Education's Office of Planning 
and Evaluation and Policy Development is critical in developing 
and implementing policy which impacts every student in this 
country. So your record of promoting school vouchers gives me 
pause that you will not stand up for students in our public 
schools.
    Ms. O'Scannlain, as the Solicitor of Labor, you will be 
responsible for pursuing litigation and helping create policies 
that protect workers' rights and enables families to become 
financially secure, and I'm concerned about your commitment to 
standing up for our workers given you spent your career as a 
corporate lawyer representing investment firms and insurance 
companies and multi-billion-dollar corporations, so I want to 
hear from you about that.
    Mr. Rutledge, as Assistant Secretary of the Employee 
Benefits Security Administration, you will oversee private-
sector retirement plans, health plans, and other benefits for 
workers across our country. You have expressed your 
``discomfort'' with the fiduciary rule, a critical and 
commonsense rule, in my opinion, which simply requires 
financial advisors to act in the best interest of their 
clients. So I hope you're prepared today to talk about how you 
plan to put working families ahead of insurance companies and 
corporations, because if you want to grow our economy, we've 
got to start by strengthening that middle class, and I just 
don't have faith in President Trump's commitment to do that 
right now.
    But I can at least hope that his nominees will commit to 
standing up for the mission of the agencies that you want to 
serve in and the people that we all represent. This is really, 
to me, a pivotal moment, and I really want to hear your answers 
on how all of you plan on lifting up families in our country 
today.
    Thank you very much.
    The Chairman. Thank you, Senator Murray.
    We now will hear from our four nominees. Thanks to each of 
you for offering to serve our country. I've given each of you a 
pretty thorough introduction, so this will be brief.
    As I said, when Senator Hatch arrives, I'll stop and let 
him say a few words about Mr. Rutledge, and then go back.
    The first nominee is General Mitch Zais for Deputy 
Secretary, South Carolina's State Superintendent of Education, 
10 years a college president, retired from the Army, 31 years a 
brigadier general.
    Mr. James Blew worked for 20 years to promote education 
reform.
    Kate O'Scannlain for the Solicitor of the Department of 
Labor, with a focus on employment and labor since 2005, a 
strong legal background.
    Mr. Preston Rutledge, who has been working with the Finance 
Committee; Senator Hatch, of course, will say more about him.
    So why don't we start with you, General Zais.
    If you each would summarize your thoughts in about 5 
minutes, that will leave more time for questions.
    Welcome, General Zais.

          STATEMENT OF BRIGADIER GENERAL MITCHELL ZAIS

    General Zais. Thank you, Chairman Alexander, Ranking Member 
Murray, and Committee Members. It's an honor to appear before 
you today.
    I'd also like to thank President Trump and Secretary DeVos 
for their confidence in me. It was Secretary DeVos' vision and 
commitment to students that inspired me to undertake this task.
    I would also like to thank my family. My wife Susan and I 
have been married for 38 years. She is an Army daughter, an 
Army wife, and an Army mother. Throughout our frequent moves 
she managed to make a home out of a house in 13 different 
locations, an average of less than 3 years per residence. Susan 
currently mentors a child in a high-poverty elementary school 
in our hometown.
    My son, Bradley, is a veteran of the war in Iraq where he 
fought as an infantry soldier with the 101st Airborne Division. 
His wife, Suzanne, is an elementary school teacher in an inner-
city public charter school.
    My daughter, Ashley, is a stay-at-home mom, and her 
husband, Michael, works as an attorney with the U.S. Justice 
Department.
    Finally, my brother is a paratrooper, Ranger, and retired 
infantry colonel with a Ph.D. from Duke University.
    As an Army brat, I attended 11 different schools in 13 
years, including three high schools. Both of my children 
attended public schools here in Washington, DC, and graduated 
from public schools in rural South Carolina.
    I come from a family of teachers. My father was coaching 
and my mother was teaching home economics when they met. My 
brother and I both taught at West Point. My wife and daughter 
both taught English as a second language, and my wife was an 
adult education teacher. My mother-in-law and sister-in-law and 
daughter-in-law were all elementary school teachers.
    At an early age I learned the importance of education from 
the examples of my father and from my uncle. My father's 
parents, immigrants from eastern Europe, did not have much 
education. His mother got as far as 6th grade, his father only 
as far as 3rd grade. But he was able to finish high school, the 
only one of four boys in the family to do so. By working and 
getting some partial scholarships, he graduated from the 
University of New Hampshire. Ultimately, he became the NATO 
commander of the Greek and Turkish armies. To the best of my 
knowledge, he is the only Jewish four-star general in the 
history of the American Army.
    Education was also vital to the success of my uncle, an 
orphan who quit school in the 7th grade. On his 17th birthday 
he enlisted in the Army, and despite lacking a high school 
education he got an appointment to West Point. Ultimately, he 
became the youngest two-star general in the history of the 
American Army and U.S. Ambassador to France under President 
Kennedy.
    You understand my commitment to education, and you also 
know my record. I believe that one size doesn't fit all in 
education and that low-income families deserve the same right 
that high-income families have always enjoyed, which is to 
choose a learning environment that is a good fit for their 
child.
    You also know that I resisted what I perceived to be well-
intentioned but overly intrusive mandates from Washington. I 
believe that most education policy should be left to the states 
so they can develop solutions that best fit their own unique 
circumstances.
    The contentious issues in K-12 are simple to me. Does one 
support the school system, or does one support the school 
students? In my view the answer is clear: students come first.
    In closing, I have lived a lifetime of service. For 31 
years I served my country as an infantry soldier with duty in 
Vietnam, Korea, Panama, and the Middle East. For 10 years I 
served my faith as president of a faith-based college. For 4 
years I served the people of South Carolina as their elected 
State Superintendent of Education. I view possible confirmation 
as Deputy Secretary of Education as the culmination of a 
lifetime of service, and I look forward to your questions.
    [The prepared statement of General Zais follows:]
                                ------                                

                  Prepared Statement of Mitchell Zais
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee, it is an honor to appear before you today. Thank you.
    I would also like to thank President Trump and Secretary DeVos for 
their confidence in me. It was Secretary DeVos' vision and record of 
commitment to students and parents that inspired me to undertake this 
task.
    I would also like to thank my family members who have been so 
supportive, some of whom are here today.
    My wife, Susan, and I have been married almost 38 years. She is an 
Army daughter, Army wife, and Army mother. Throughout our frequent 
moves she made each house a home, 13 altogether, an average of less 
than 3 years in each residence. Susan currently mentors a child in a 
high-poverty elementary school in downtown Columbia, South Carolina.
    My son, Bradley, is a veteran of the war in Iraq where he fought as 
an infantry soldier with the famed 101st Airborne Division. He now 
proudly serves in the South Carolina National Guard. His wonderful 
wife, Suzanne, is an elementary school teacher at an inner-city, public 
charter school in Charleston, South Carolina.
    My daughter, Ashley, a stay-at-home mom, and her husband Michael, 
are here. Michael is an attorney with the U.S. Department of Justice.
    Finally I would like to thank my older brother, Barrie, a 
paratrooper, Ranger, and retired infantry colonel with a Ph.D. from 
Duke. He has been my role model my entire life.
    Growing up as an Army brat, I attended 11 different schools in 13 
years, including three high schools. Both of my children attended 
public school here in the District of Columbia--and they graduated from 
a public high school in rural South Carolina.
    I come from a family of teachers. My parents met when both were 
teaching high school. My father was teaching PE and coaching; my mother 
was teaching what was then known as home economics. My brother and I 
both taught at West Point. My wife and daughter both taught English as 
a second language, and my wife was also an adult education teacher. My 
mother-in-law and sister-in-law were both career elementary school 
teachers. As I mentioned, my daughter-in-law is an elementary school 
teacher.
    At an early age, I learned the vital importance of education from 
the examples of my father and uncle.
    My father's parents did not have much education. They were 
immigrants from Eastern Europe. His mother got as far as sixth-grade, 
this father only as far as third-grade.
    My father, the youngest of four boys, was the only one who finished 
high school. But, by working, with a small ROTC scholarship, several 
partial athletic scholarships, and with help from his older brothers, 
he was able to graduate from the University of New Hampshire. With his 
education, plus hard work, he ultimately became the NATO commander of 
the Greek and Turkish armies. To the best of my knowledge, he is the 
only Jewish four-star general in the history of the American Army.
    Education was also vital to the success of my uncle. An orphan, he 
was adopted by a coal mining family in Pennsylvania. He quit school in 
the seventh-grade to work to earn money for them. To escape, he ran 
away from home on his seventeenth birthday and lied to enlist in the 
Army. Despite lacking a high school education, he earned an appointment 
to West Point. The education he received there provided the foundation 
that ultimately led to his becoming the youngest two-star general in 
American history and U.S. Ambassador to France under President Kennedy.
    So now, you understand my personal commitment to education.
    You also know my record.
    You know I believe that one size does not fit all in education and 
that no child should be forced to attend a failing school. Lower-income 
families deserve the same right that upper-income and middle-income 
families have always enjoyed--that is, to choose a school that is a 
good fit for their child. Upper-income families have school choice. 
They can choose to put their children in private schools. Middle-income 
families, by and large, have school choice. They can move to the 
suburbs or to highly ranked school districts if the local school is not 
a good fit. It is predominately low-income families that are trapped in 
perennially failing schools, with no escape and no options.
    You also know that as State Superintendent of Education in South 
Carolina, I resisted what I perceived as well intentioned, but overly 
intrusive mandates from Washington. Just as one size does not fit all 
students, one size does not fit all states. I believe most education 
policy should be left to the states to develop solutions that best 
address their own unique circumstances.
    The contentious issues involved in K-12 education seem to me to be 
pretty simple. Does one support the school system or does one support 
the school students? My stance has been clear: students come first.
    Also, as a college president for 10 years, I learned how difficult 
it can be to comply with the requirements imposed from Washington. I'm 
aware of the ``Report of the Task Force on Federal Regulation on Higher 
Education'' and look forward to working to reduce the enormous 
administrative burden.
    In closing, I have lived a life of service. For 31 years I served 
my country as an infantry soldier in the United States Army, with duty 
in Vietnam, Korea, Panama, and the Middle East. For 10 years I served 
my faith as president of a faith-based college. For 4 years I served 
the people of South Carolina as their elected State Superintendent of 
Education. I view possible confirmation as Deputy Secretary of 
Education as yet another chance to serve the Nation I love so dearly, 
and the culmination of a career of service.
    Thank you for the opportunity to appear before you. I look forward 
to your questions.
                                 ______
                                 
    The Chairman. Thank you, General Zais.
    Mr. Blew, welcome.

                    STATEMENT OF JAMES BLEW

    Mr. Blew. Thank you, Chairman Alexander, Ranking Member 
Murray, and other Members of the Committee. It is an honor to 
appear before you today as the nominee for Assistant Secretary 
for the Office of Planning, Evaluation, and Policy Development 
at the U.S. Department of Education.
    Mr. Chairman, I have submitted a written statement for the 
record. May I summarize my points?
    The Chairman. Yes.
    Mr. Blew. That's great.
    I do want to start by thanking my family that has been very 
supportive of me: my brother, who is a retired public school 
teacher and Army officer; my two children, one who attends 
university in North Carolina, another who attends university in 
Los Angeles; but most of all I want to thank my wife. She and I 
met in public high school back in Reseda, California. We became 
married several years later. It is our partnership and our love 
that makes me a better man. My wife has a very demanding 
orthodontic practice back in our hometown, and she could not be 
here today.
    The second family that I wanted to thank, and I do so in my 
written statement, is the Walton family. I want to thank them 
globally for their steadfast investments in helping improve the 
lives of children in low-income communities across this 
country. I also include in there my philosophy about education 
reform and some of my experience that I believe is part of what 
prepares me for this position, if the Senate confirms me.
    The bulk of this presentation goes into a ringing 
endorsement of the limited but very important role that the 
Federal Government plays in our education system: namely, the 
enforcement of our civil rights laws in schools and colleges; 
second, the assistance that the Federal Government gives our 
states as they address the needs of disadvantaged students, as 
well as students with disabilities; and finally, the support 
that the Federal Government gives students as they prepare, 
attend, and hopefully complete their degrees and certificates 
in higher education.
    I will conclude, as I do in my written statement, by 
thanking the millions of parents and teachers who educate our 
children every day. It is my belief that the success of our 
country depends on us empowering those parents and teachers to 
improve our system.
    I look forward to your questions.
    [The prepared statement of Mr. Blew follows:]
                                ------                                

                  Prepared Statement of James C. Blew
    Chairman Alexander, Ranking Member Murray, Members of the 
Committee:
    It is an honor to appear before you today as the nominee for 
Assistant Secretary for the Office of Planning, Evaluation and Policy 
Development at the U.S. Department of Education.
    I appreciate the confidence and support that President Trump and 
Secretary DeVos have placed in me and education reform with this 
nomination. Before sharing my approach to the position, if confirmed, I 
have two families that I would like to thank. Without them, I would not 
be appearing before you today.
    First is my own family, especially my wife Carole. She has a 
demanding orthodontic practice back in our home town, which keeps her 
from joining us today. But without her consistent support, love and 
partnership, I would not have been able to commit much of my adult life 
to the education reform cause.
    Second is the Walton family. After Sam Walton's death in 1992, one 
of his sons, John Walton, took leadership in developing a philanthropic 
strategy that would help our country's public education system live up 
to the following aspiration: every child should be educated to his or 
her fullest potential. It is a strategy to create more high-quality 
school options in lower-income communities, more transparency about 
school and educator performance, and more accountability for 
performance.
    For a decade after John's untimely death in 2005, it was my great 
privilege to help the Walton family execute their K-12 philanthropic 
investment strategy. This involved, among other things, managing 
hundreds of grants totaling more than $1 billion over several years.
    As a country, we still have a long way to go to achieve our 
aspirations for every child. But thanks to the Walton family--along 
with like-minded philanthropists, the Federal government, and many 
others--our K-12 system is improving and continuously serving students 
better.
    For 20 years, I have focused on our students and policy at the 
state and local level. I chose to focus locally because that's where I 
felt my efforts could yield the greatest change. It is also where 90 
percent of K-12 funding is generated.
    However, I do believe the Federal Government has important roles to 
play. I'll address three:
    First, for more than 50 years, Congress has stood by our country's 
most vulnerable children. As result, it has steadily increased and 
refined the Department's role enforcing civil rights laws in our 
schools and colleges.
    Second, Congress has also invested significantly in our most 
vulnerable children--those from lower-income communities, as well as 
those with disabilities.
    For our lower-income students, I think the bipartisan framework 
laid out in the Every Student Succeeds Act is an historical step in the 
right direction. The Federal Government must empower states to pursue 
the best strategies they can devise, recognizing local context, while 
simultaneously enforcing the accountability guardrails Congress has put 
in place.
    I'm equally sanguine about the Federal role in supporting our 
vulnerable students with disabilities. Its role is critical to making 
sure all special needs students get the education they need and 
deserve.
    Third, Congress directs more than $100 billion annually to provide 
students with access to higher education in this country--several times 
more than the amount it spends through Title I on disadvantaged K-12 
students. Yet, far too many of those students are neither completing 
their degrees nor obtaining the skills and knowledge they need to 
improve their wages. We can and must do better.
    Let me close by thanking the thousands of classroom teachers and 
parents who work every day to ensure that all children in our country 
get the excellent education they deserve--and that our country needs 
them to have. The key to our country's future success is empowering 
those teachers and parents to improve our education system.
    Thank you again for the opportunity to appear before you. I look 
forward to answering your questions.
                                 ______
                                 
    The Chairman. Thank you, Mr. Blew.
    Ms. O'Scannlain.

                 STATEMENT OF KATE O'SCANNLAIN

    Ms. O'Scannlain. Thank you, Mr. Chairman, Ranking Member 
Murray, and other Distinguished Members of this Committee. It's 
an honor to appear before you today.
    I want to thank the President of the United States for 
nominating me, and Secretary Acosta for recommending me.
    I want to thank my family members and friends who are here 
today supporting me.
    Particularly, I want to acknowledge my husband, Matt 
Johnson; my parents, Diarmuid and Maura O'Scannlain; five of my 
seven siblings who are here today--Sean, Jane, Kevin, Megan, 
and Annie; my father-in-law, Walter Johnson; and my four 
children--Nolan, Cormac, Bowen, and Jane. I also want to 
recognize and thank my long-time mentor and friend from 
Kirkland & Ellis, John Irving, as well as my firm's leadership 
and colleagues for their support.
    You might say that my journey to this appointment began my 
junior year at Jesuit High School in Portland, Oregon in Father 
Larry Robinson's U.S. History Class. I was part of a small 
group of women who transferred in that year to the previously 
all-male school. I remember vividly the day that Father 
Robinson wrote the name ``Frances Perkins'' on the chalk board 
and called on me to answer what was unique about the spelling 
of the name--an ``e'' instead of an ``i''--a woman's spelling. 
Of course, I came to learn, and never have forgotten, that 
Frances Perkins was the first female Cabinet Member, the 
longest-serving Secretary of Labor, and the first woman in 
Presidential line of succession. If confirmed, it will be my 
honor to go to work every morning in the Frances Perkins 
Building to ensure that the Nation's labor laws are forcefully 
and fairly applied to protect our Nation's workers.
    We are at a critical time in history for the American 
worker as our employers and labor force face increasingly 
complex issues: the rise of the gig economy; rapid advancements 
in automation and artificial intelligence; an aging workforce; 
more women in the workplace, including in boardrooms and the 
frontlines of the military; an increase of women as the primary 
breadwinner in families; the challenges of seasonal and 
agricultural workforces; revelations of sexual harassment and 
predatory behavior on the front pages; the burdens of excessive 
occupational licensing requirements; a decline in organized 
labor; opioid abuse that is plaguing many American families and 
workers; higher compliance costs for small businesses, just to 
name a few.
    If confirmed, I pledge to tackle these challenges with the 
thoughtfulness and care that they merit. I will work to enforce 
the laws under the Labor Department's jurisdiction fully and 
fairly. I will collaborate with career officials who possess 
the bulk of the subject-matter expertise in these areas and to 
have open and fulsome dialog before committing to or 
recommending any particular course of action. I commit to 
listen carefully to all stakeholders.
    If confirmed, I look forward to helping further this 
administration's labor agenda, including issues that are of 
particular importance to this Committee. These include job 
creation, advancing opportunities for profitable employment 
through apprenticeship and job-training programs, improving 
workplace safety, helping efforts to reintegrate veterans into 
the workforce, assuring work-related benefits and rights are 
protected, among many other stated goals.
    I will bring a diversity of experiences to the Solicitor's 
office from more than a decade in private practice. In my 
experience, the vast majority of employers seek to comply with 
the law. Indeed, they spend significant amounts of money on 
compliance costs, only to confront laws, rules, and regulations 
that can be confusing in their application to the modern 
workplace. The rules of the road should be clear and compliance 
guidance ample and easily accessible. Our laws should not be a 
game of ``gotcha'' or involve gamesmanship using novel legal 
theories. That benefits no one, especially the American worker.
    Like Secretary Acosta, I am committed to helping employers 
understand their obligations to their workforces and properly 
incentivizing compliance with the law.
    If confirmed, I intend to promote understanding and 
effective enforcement, and to reduce unnecessary redundancies 
through communication and cooperation with our federal and 
state agencies. I would challenge this Committee, just as I 
will challenge the Labor Department every day of my service, to 
write laws, rules, and guidance that are clear to employers, 
employees, and unions so that we can be confident when bringing 
an action that the offending party deserves to be met with the 
full force of the Labor Department's enforcement resources.
    In closing, it is not lost on me that if confirmed I will 
serve as the highest-ranking woman in the Labor Department. 
That is not a responsibility I take lightly. I pledge to this 
Committee to bring the totality of my experiences to bear upon 
the unique challenges facing today's modern workplace.
    Thank you again, and I look forward to any questions the 
Committee may have.
    [The prepared statement of Ms. O'Scannlain follows:]
                                ------                                

                 Prepared Statement of Kate O'Scannlain
    Thank you, Mr. Chairman, Ranking Member Murray, and Distinguished 
Members of the Committee. It is an honor to appear before you today as 
you consider my nomination to be Solicitor of Labor. I want to thank 
the President of the United States for nominating me and Secretary 
Acosta for recommending me. I want to thank the family members and 
friends who are here today supporting me.
    In particular, I want to acknowledge my husband Matt Johnson, my 
parents Diarmuid and Maura O'Scannlain, five of my seven siblings who 
are here today (Sean, Jane, Kevin, Megan, and Annie), my father-in-law 
Walter Johnson, and my four children Nolan, Cormac, Bowen, and Jane. I 
also want to recognize and thank my long-time mentor and friend from 
Kirkland & Ellis, John Irving, as well as my firm's leadership and 
colleagues for their support.
    You might say that my journey to this appointment began my junior 
year at Jesuit High School in Portland, Oregon in Father Larry 
Robinson's U.S. History Class. I was part of a small group of women who 
transferred that year into the previously all-male school. I remember 
vividly the day Father Robinson wrote the name ``Frances Perkins'' on 
the chalk board and called on me to answer what was unique about the 
spelling of Frances-an ``e'' instead of an ``i''--a woman's spelling. 
Of course, I came to learn--and never have forgotten--that Frances 
Perkins was the first female Cabinet Member, the longest serving 
Secretary of Labor, and the first woman in Presidential line of 
succession. If confirmed, it will be my honor to go to work every 
morning in the Department of Labor Frances Perkins Building to ``ensure 
that the Nation's labor laws are forcefully and fairly applied to 
protect [our] Nation's workers.''\1\
---------------------------------------------------------------------------
    \1\ DOL Solicitor's Mission Statement.
---------------------------------------------------------------------------
    We are at a critical time in history for the American Worker as our 
employers and labor force face increasingly complex issues: the rise of 
the gig economy; rapid advances in automation and artificial 
intelligence; an aging workforce; more women in the workplace-including 
in Board rooms and the frontlines of the military; an increase of women 
as the primary bread-winner in families; the challenges of seasonal and 
agricultural workforces; revelations of sexual harassment and predatory 
behavior on the front pages; the burdens of excessive occupational 
licensing requirements; a decline in organized labor; opioid abuse that 
is plaguing many American families and workers; higher compliance costs 
for small businesses-just to name a few.
    If confirmed, I pledge to tackle these challenges with the 
thoughtfulness and care that they merit. I will work to enforce laws 
under the Labor Department's jurisdiction fully and fairly. I commit, 
if confirmed, to collaborate with the career officials who possess the 
bulk of the subject-matter expertise in these areas and to have open 
and fulsome dialog before committing to or recommending any particular 
course of action. I commit, to listen carefully to all stake holders.
    If confirmed, I look forward to helping further this 
Administration's Labor agenda, including issues that are of particular 
importance to this Committee. These include job creation, advancing 
opportunities for profitable employment through apprenticeship and job-
training programs, improving workplace safety, helping efforts to 
reintegrate veterans into the workforce, assuring work-related benefits 
and rights are protected-among many other stated goals. I will bring a 
diversity of experiences to the Solicitor's office from more than a 
decade in private practice. In my experience, the vast majority of 
employers seek to comply with the law. Indeed, they spend significant 
amounts of money on compliance costs--only to confront laws, rules, and 
regulations that can be confusing in their application to the modern 
workplace. The rules of the road should be clear and compliance 
guidance ample and easily accessible. Our laws should not be a game of 
``gotcha'' or involve gamesmanship using novel legal theories. That 
benefits no one, especially the American worker. Like Secretary Acosta, 
I am committed to helping employers understand their obligations to 
their workforces and properly incentivizing compliance with the law.
    If confirmed, I intend to promote understanding and effective 
enforcement. Also to reduce unnecessary redundancies through 
communication and cooperation with our federal and state agencies. I 
would challenge this Committee, just as I will challenge the Labor 
Department every day of my service, to write laws, rules, and guidance 
that are clear to both employers, employees, and unions--so that we can 
be confident when bringing an action the offending party deserves to be 
met with the full force of the Labor Department's enforcement 
resources.
    In closing, it is not lost on me that if confirmed I will serve as 
the highest ranking woman in this Labor Department. That is not a 
responsibility I take lightly. I pledge to this Committee to bring the 
totality of my experiences to bear upon the unique challenges facing 
today's modern work place.
    Thank you again. I look forward to any questions the Committee may 
have.
                                 ______
                                 
    The Chairman. Thank you, Ms. O'Scannlain.
    Mr. Rutledge, welcome.

                 STATEMENT OF PRESTON RUTLEDGE

    Mr. Rutledge. Thank you. Good afternoon, Chairman 
Alexander, Ranking Member Murray, and other Members of the 
Committee. Thank you for the opportunity to appear before you 
today. I am honored to have been recommended by Secretary 
Acosta and nominated by President Trump to lead the Employee 
Benefits Security Administration, known as EBSA, at the 
Department of Labor.
    If I may take just a brief moment to introduce my family 
who are here today, I would like to do that. My wife, Julie 
Gackenbach, is sitting directly behind me. Without her tireless 
support in every facet of my life, I could not have spent as 
many years in public service as I have, and that's just one of 
the few things she's done for me in my life.
    Also here today is my older son, Charlie Rutledge, and his 
wife and my new daughter-in-law, Nicole Rutledge; and also my 
younger son, Andrew Rutledge, and his girlfriend, Gabriella 
Simondson. I was instructed to be sure to put the ``D'' in 
there. It's ``Simondson.''
    The mission of EBSA is to assure the security of the 
retirement, health, and other workplace benefits of America's 
workers and families. While EBSA develops and enforces 
regulations, the role of EBSA is much broader. The office 
assists and educates workers, plan sponsors, fiduciaries, and 
service providers. It engages in outreach and research.
    I have spent nearly my entire career as a lawyer in the 
employee benefits area. I believe in the importance of employee 
benefit programs for America's workers. If I am fortunate 
enough to be confirmed, I look forward to working to strengthen 
and expand opportunities for employers to offer and employees 
to benefit from retirement, health, and other employee benefit 
programs.
    I have had the pleasure to work with many of you during my 
tenure at the Senate Finance Committee as I have worked to 
advance retirement benefit security reforms. I am most proud 
that we were able to work together last year to develop the 
Retirement Enhancement and Savings Act of 2016. The bill would 
have modified requirements regarding multiple employer plans, 
automatic enrollment, auto escalation, reporting and disclosure 
rules, and rules regarding the selection of lifetime income 
providers.
    The bill also would have increased the tax credit for small 
employer pension plans and allow a tax credit for employers 
that startup a pension plan that includes automatic enrollment.
    With respect to individual retirement accounts, the bill 
would have treated taxable non-tuition fellowship and stipend 
payments as compensation for the purpose of an IRA. That would 
allow a student to begin contributing to an IRA while they're 
still a student.
    The bill garnered the support of every Member of the 
Finance Committee and was for me a great example of Chairman 
Hatch's and Ranking Member Wyden's leadership and our ability 
to work together on a bipartisan basis to improve retirement 
security. I've always believed that retirement should not be a 
partisan issue, and in my experience working for the Senate 
Finance Committee, it never has been.
    In addition to retirement policy, I have worked closely 
with staff from both parties, including the staff of two 
Members of this Committee, Senator Burr and Senator Casey, to 
help Congress enact the Achieving a Better Life Experience Act, 
or the ABLE Act. The ABLE Act allows disabled individuals and 
their families to save private funds in a tax-advantaged 
account, similar to a college savings account, for the purpose 
of paying for the expenses related to living a life with 
disabilities. If confirmed, I look forward to working with the 
Chairman, the Ranking Member, and the other Members of this 
Committee on these and other proposals to strengthen our 
Nation's pension laws.
    I'm running out of time to keep talking about myself, so I 
won't. I'll just mention briefly that I have spent a lot of 
time in the government working to support ERISA. I believe in 
ERISA, and I hope to bring both my public-and private-sector 
experience to work on the ERISA issues that the country faces.
    If I'm given the opportunity to serve, I look forward to 
working with all of you and your staff and the talented and 
hard-working staff at EBSA to protect and improve the employee 
benefit system.
    Thank you, Mr. Chairman and Ranking Member Murray, for the 
chance to speak to you today. I am happy to answer any 
questions.
    [The prepared statement of Mr. Rutledge follows:]
                                ------                                

                 Prepared Statement of Preston Rutledge
    Good afternoon Chairman Alexander, Ranking Member Murray and other 
Members of the Committee. Thank you for the opportunity to appear 
before you today. I am honored to have been nominated to lead the 
Employee Benefits Security Administration (EBSA) at the Department of 
Labor.
    The mission of EBSA is to assure the security of the retirement, 
health and other workplace related benefits of America's workers and 
their families. While EBSA develops and enforces regulations, the role 
of EBSA is much broader. The office assists and educates workers, plan 
sponsors, fiduciaries and service providers. It engages in outreach and 
research.
    I have spent nearly my entire career as a lawyer in the employee 
benefits area. I believe in the importance of employee benefit programs 
to America's workers. If I am fortunate enough to be confirmed, I look 
forward to working to strengthen and expand opportunities for employers 
to offer and employees to benefit from retirement, health and other 
employee benefit programs.
    I have had the pleasure to work with many of you during my tenure 
at the Senate Finance Committee as we have worked to advance retirement 
and benefits security reforms. I am most proud that we were able to 
work together to develop the Retirement Enhancement and Savings Act of 
2016. The bill would have modified requirements regarding multiple 
employer plans, automatic enrollment, auto escalation, reporting and 
disclosure rules, defined benefit plan nondiscrimination rules and 
rules regarding the selection of lifetime income providers. The bill 
also would have increased the tax credit for small employer pension 
plan startup costs and allow a tax credit for small employers that 
establish retirement plans that include automatic enrollment. With 
respect to individual retirement accounts, the bill would have treated 
taxable non-tuition fellowship and stipend payments as compensation for 
the purpose of an IRA. The bill garnered the support of every Member of 
the Finance Committee and for me was a great example of Chairman 
Hatch's and Ranking Member Wyden's leadership and our ability to work 
together on a bipartisan basis to improve retirement security.
    In addition to retirement policy, I have worked closely with staff 
from both parties, including the staff of two Members of this 
Committee, Senator Burr and Senator Casey, to help Congress enact the 
Achieving a Better Life Experience Act of 2014. The ABLE Act allows 
disabled individuals and their families save private funds in a tax-
advantaged account, similar to a college savings account, for the 
purpose of paying for expenses related to living a life with 
disabilities. If confirmed, I look forward to working with the Chairman 
and the Members of this Committee on these and other proposals to 
strengthen our Nation's pension laws.
    Prior to joining the Finance Committee I served in the Office of 
Chief Counsel for the Internal Revenue Service where I focused on tax 
side issues of employee benefits, plan design and administration, and 
compliance. I also served for many years in private practice where I 
was engaged in compliance and plan design as well as ERISA litigation. 
Before I became a lawyer, I was a Naval Office for 4 years, served on a 
destroyer escort stationed in San Diego, California, making one 
deployment to the Western Pacific.
    I hope to bring my public and private sector experience to EBSA to 
help Secretary Acosta help workers and employers meet the challenges 
inherent in our changing society--including improved longevity and 
changing employment relationships.
    If I am given the opportunity to serve, I look forward to working 
with you, your staff, the talented and hardworking staff at EBSA, 
employees, plan sponsors and the public at large to protect and improve 
our Nation's employee benefit system.
    Thank you Mr. Chairman and Ranking Member Murray for the change to 
speak with you today. I am happy to answer any questions.
                                 ______
                                 
    The Chairman. Thank you, Mr. Rutledge. Thanks to all of 
you.
    We'll now begin a round of 5-minute questions.
    General Zais, let me begin with you. You were 
Superintendent of Education in South Carolina during the last 
administration, correct?
    General Zais. That is correct, sir.
    The Chairman. You're familiar with what the administration 
did with waivers when they said in order for you to have a 
waiver from No Child Left Behind, you had to do X, Y, and Z, 
such as adopt these standards or this teacher evaluation 
program, correct?
    General Zais. We did develop a plan that we worked on very 
hard. Yes, sir.
    The Chairman. But you're aware that they required you to do 
things in exchange for getting a waiver, correct?
    General Zais. That is correct, sir.
    The Chairman. Are you aware that we changed that law?
    General Zais. I am.
    The Chairman. That means that as Deputy Secretary of the 
Department of Education, if Tennessee applies for a waiver, in 
some circumstances you're prohibited from conditioning that 
waiver on some other well-intended goal.
    General Zais. Senator, I understand absolutely. The job of 
the Secretary in the Department of Education is to ensure that 
state plans comply with the law, no more, no less.
    The Chairman. We took the extraordinary step, some people 
thought, of actually writing prohibitions into the law not just 
to apply to the previous administration but to this one, and to 
my surprise within a few months after this one took office, 
there was a letter sent to Delaware saying that its state plan 
as proposed wasn't ambitious enough.
    Now, the law says that the plan has to be an ambitious 
state design plan. The law also says the Secretary is 
prohibited from defining that. Do you agree that the Department 
of Education in Washington doesn't have the authority to tell 
Delaware that its plan is not--to reject the plan because it's 
not ambitious enough?
    General Zais. That is my understanding of the law, sir. I'm 
not familiar with the case of Delaware or the plan they 
submitted.
    The Chairman. Now, you might go to Delaware and say it's a 
dumb plan, or it's not ambitious, or they should be 
embarrassed, or you have a lot of suggestions for how to 
improve it. But the idea was that it's state designed and that 
the Department wouldn't do that mandate.
    Let me switch gears to higher education, Mr. Blew and 
General Zais. We had very good work done. Senators Mikulski, 
Bennet, Burr and I asked a group of higher educators to come up 
with 59 ways to simplify more effective regulations for higher 
education so students could apply for and pay off their loans 
more efficiently, and university administrators could run our 
6,000-student campus more efficiently. They came back, the 
Chancellor of Maryland and the Chancellor of Vanderbilt, with 
59 recommendations widely endorsed by the higher education 
community. Of those 59, 12 can be done by the Department of 
Education alone. Are you familiar with that?
    Mr. Blew. I am familiar with the study. It makes a very 
compelling case.
    The Chairman. Would you commit to review those 12 proposals 
and take action on those proposals if you think they're 
appropriate within a reasonable period of time?
    Mr. Blew. Absolutely, to the extent that it would involve 
my office, if confirmed.
    The Chairman. General Zais, are you familiar with the 
Kerwin Zeppos recommendations and the fact that the Department 
itself could act on 12 of the 59 provisions without our 
involvement?
    General Zais. Senator, I am aware of the Kerwin Zeppos task 
force report. Having been required to comply with in excess of 
several thousand pages worth of regulations and administration, 
I look forward to assisting the Secretary in those 12 
initiatives.
    The Chairman. Yes. The consensus among at least the four 
Senators who were working on that is that this is a rapidly 
changing world and we want higher education to be able to be 
flexible enough to deal with that, and the so-called jungle of 
red tape identified by this group of distinguished educators 
were a matter of simplifying effective regulation. In one case, 
the FAFSA, which Senator Bennet and I introduced a bill on, 
which we'll have a hearing on later this month, the 
recommendation was to go from 102 questions to two. Twenty 
million families fill out that form every year.
    I have time for one more question.
    Ms. O'Scannlain, in our conversations you said you know the 
difference between a guidance and a regulation. Will you pay 
attention to the guidances offered by the Department of Labor 
and make sure that briefs filed in the Supreme Court or the 
circuit courts of the United States don't allege that 
guidances, which are not law, are the law of the land?
    Ms. O'Scannlain. Thank you, Mr. Chairman. Yes, I will. In 
particular, if I may have more time to answer, guidance is not 
law but guidance is an important aspect of making sure there's 
consistency and application of our laws, and that's one of my 
main priorities. If I'm lucky enough to be Solicitor, that is 
one of my main priorities, and I know that's an important issue 
to you as well.
    The Chairman. But guidance are not law, correct?
    Ms. O'Scannlain. Correct.
    The Chairman. Correct. Okay.
    Ms. O'Scannlain. Guidance is guidance.
    The Chairman.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    General Zais, let me start with you. As State 
Superintendent of Education in South Carolina, you repeatedly 
advocated for private school vouchers, including helping to 
pass a tax credit voucher program for students with 
disabilities which allows wealthy individuals and corporations 
to receive a tax break for contributing to private school 
voucher programs.
    Now, President Trump has proposed spending Federal dollars 
to support private school voucher programs. Would you support 
spending taxpayer dollars for a new private school voucher 
program that takes money away from our public schools?
    General Zais. Ranking Member Murray, I applaud the 
initiative of Florida and other states which allowed 
scholarships to students with disabilities to attend a school 
that meets their needs and was instrumental in recommending a 
similar program in South Carolina.
    Senator Murray. Well, my question goes to the fact that 
Congress never intended ESSA to be used for vouchers. I want 
you to know I'm going to work every day to make sure the 
Department doesn't overreach in that area. I know many of my 
colleagues on both sides of the aisle agree with me, and I hope 
you will commit to uphold the tenets of our bipartisan bill as 
well.
    General Zais. I understand what the law is and I can assure 
you that the Secretary and I, if confirmed, I will work to make 
sure that the law is complied with.
    Senator Murray. Okay. In another area, General Zais, in 
July, when she was talking about sexual assault on campus, the 
Acting Assistant Secretary for Civil Rights, Candice Johnson, 
said, and I want to quote, ``The accusations, 90 percent of 
them fall into the category of `We were both drunk. We broke 
up, and 6 months later I found myself under a Title 9 
investigation because she decided that our last sleeping 
together was not quite right.' ''
    Candice Johnson, after having said that, is still serving 
in the role of Acting Assistant Secretary. I want to know, if 
you're confirmed--you'll be second-in-command at the Department 
of Education--do you believe the comments made by Acting 
Assistant Secretary were appropriate for someone who is charged 
with enforcing civil rights for the Department?
    General Zais. I'm not familiar with the comment, but I do 
agree that one act of sexual violence in any case is 
unacceptable, and that the Department should promulgate very 
clear guidance and help the institutions. As I understand, the 
Secretary has undertaken that process with a rulemaking.
    Senator Murray. Well, I just want you to know, I'm really 
disturbed by her comments. She is overseeing a critical agency 
that oversees that. If confirmed, I hope you will think about 
that and determine whether or not you believe she's the right 
person to be there.
    Mr. Blew, if confirmed, you're going to be advising the 
Secretary on all matters relating to policy development. Since 
her confirmation, Secretary DeVos has made it clear she's going 
to take a different path to addressing campus sexual assault. 
She rescinded the 2011 and 2014 guidance that are related to 
sexual harassment, including sexual violence, and that guidance 
was there to help survivors speak out about their assaults and 
make clear that schools could no longer sweep sexual assault 
under the rug.
    Now, the Secretary has announced she plans a notice and 
comment period related to addressing sexual harassment and 
assault. However, it's now been 2 months since that guidance 
was rescinded, and it remains very unclear if and when the 
Secretary intends to move forward with the rulemaking process.
    That lack of movement is particularly concerning as interim 
guidance appears inconsistent now with the previous guidance it 
claimed to follow and actually suggests to schools that they 
don't need to take efforts to minimize the impact on survivors 
and can set higher standards of evidence than are allowed in 
other civil rights cases.
    Do you believe there is a role here for guidance to clarify 
and ensure schools understand what is required of them to 
comply with Title 9 and other Federal statutes?
    Mr. Blew. Senator, you've already acknowledged that this is 
in the rulemaking process. I hear your impatience about the 
lack of movement on it. It's inappropriate for me to comment on 
the process itself. I do want to echo what General Zais said. 
Sexual violence should not be tolerated. It's clear in the law, 
and we have every intention of following through on that.
    Senator Murray. Okay. Well, this is really critical because 
without guidance--it's been rescinded--it sort of gives schools 
the ability to say this isn't as important. I think critically 
right now we give that guidance out, we need it out soon, we 
need to be able to see that it is actually going to be able to 
protect survivors and create a climate on our campuses that 
says it's safe for women to be there. So I would appreciate you 
looking at that.
    Mr. Blew. I hear you.
    The Chairman. Thank you, Senator Murray.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    Ms. O'Scannlain, it was great meeting you yesterday. In our 
meeting you talked about the revelations of systemic sexual 
harassment in the workplace across a wide variety of 
industries, which you mentioned in your opening remarks.
    Ms. O'Scannlain. Right.
    Senator Franken. I think one reason that people are 
horrified is because they find it hard to believe that it's so 
widespread. Part of the reason they don't know it is so 
widespread is because of the forced arbitration clauses found 
in employment contracts which often prevent victims from 
speaking out, which keeps the arbitration all secret.
    In an op-ed published a few months back, Gretchen Carlson, 
who recently took on her former boss at Fox News, Roger Ailes, 
wrote: ``So many women are being silenced by employers who 
force them into a secret star-chamber proceeding called 
arbitration. By coercing women to remain silent about illegal 
behavior, the employer is able to shield abusers from true 
accountability and leave them in place to harass again. The 
arbitration process has silenced millions of women who 
otherwise may have come forward if they knew they were not 
alone.''
    Ms. O'Scannlain, you and I discussed this issue. Do you 
agree that forced arbitration clauses that prevent victims of 
workplace harassment from speaking out about what has happened 
to them are problematic?
    Ms. O'Scannlain. I do, Senator, and we did have a great 
conversation about that yesterday. I want to say that there's 
no place for sexual harassment in the U.S. workforce and that 
it obviously is a very prevalent issue, and particularly in the 
instance of Gretchen Carlson in the Fox News situation, that 
clause failed her and it didn't enable her to know about the 
other women who were going through a similar situation.
    Senator Franken. Well, I want to get rid of that clause, 
that kind of clause.
    Ms. O'Scannlain. I understand that.
    Senator Franken. Would you support that?
    Ms. O'Scannlain. I'm not going to commit to any particular 
policy consideration out of deference to the Secretary, who I 
have not had discussions with, but I agree that they're 
problematic. I agree that the issue needs to be discussed and 
further studied, and I look forward to working with you on 
that.
    Senator Franken. Thank you very much.
    General Zais, nice to meet you. You said to your knowledge, 
your father was the only Jewish four-star general in the United 
States Army. Is that correct?
    General Zais. To the best of my knowledge, that's correct, 
Senator.
    Senator Franken. Did you know that Wesley Clark, a four-
star general, is half-Jewish?
    [Laughter.]
    General Zais. No, sir. General Clark is a good friend with 
whom I've worked closely, and I did not know that.
    Senator Franken. Okay. Well, he's probably trying to keep 
it secret.
    [Laughter.]
    Senator Franken. During your tenure as State Superintendent 
in South Carolina, you supported voucher programs using public 
dollars to send students to private schools, and if confirmed, 
you will serve as second-in-command to Secretary DeVos, who has 
spent years pushing vouchers. Are you aware of the research on 
the impact of vouchers on student achievement?
    General Zais. Senator, to the best of my knowledge, 
whenever we give parents an opportunity to choose a school 
that's a good fit for their child, the result is improved 
outcomes.
    Senator Franken. No, that's not true. The academic outcomes 
for students who use vouchers to attend private schools is 
actually quite abysmal. The New York Times article from 
February of this year reported on three studies of large state 
voucher programs, three of the largest--Indiana, Louisiana, and 
Ohio. Each study found vouchers negatively impact results in 
both reading and math. In fact, in Louisiana's voucher program, 
public elementary school students who started at the 50th 
percentile in math and then used a voucher to transfer to a 
private school dropped to the 26th percentile in a single year.
    Harvard education professor Martin West said this negative 
effect was ``as large as any I've seen in the literature.'' He 
was talking about all literature, the entire history of 
American education research.
    There was a study of--that was Indiana. No, that was 
Louisiana. In Indiana, the same kind of results; the same kind 
of results in Ohio. These were astoundingly--in DC, we saw a 
recent study showed that students who used vouchers have 
significantly lower math and reading scores than students who 
did not receive a voucher. For voucher recipients coming from a 
low-performing public school attending a private school, it had 
no effect on achievement. For voucher recipients coming from a 
high-performing public school, the negative effect was 
particularly large.
    When you answered my question, you didn't answer my 
question. I said were you aware of the studies, and you 
didn't--can I just finish?
    General Zais. Yes, sir.
    Senator Franken. Okay. You said, instead of answering my 
question, you said in every case when students had vouchers, 
their performance has improved. That's totally anecdotal, I 
assume?
    General Zais. Senator, I was unaware of those studies that 
you cited.
    Senator Franken. I understand that. Was your--what you 
testified before us, was that anecdotal?
    General Zais. Yes, it was.
    Senator Franken. Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Hassan.

                      Statement of Senator Hassan

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Murray. Good afternoon to all four nominees. Congratulations on 
your nominations, and congratulations and thanks to your 
families as well, because this is a family business when you 
step up to serve, so we are grateful.
    Mr. Rutledge, I wanted to just follow up on a topic we 
discussed when we met, and thank you for meeting with me in my 
office. The Trump administration recently issued two interim 
final rules taking direct aim at birth control coverage for 
millions of women. These rules undermine women's access to 
contraceptives without out-of-pocket costs by letting a woman's 
employer decide, for virtually any reason, that she can no 
longer have access to this benefit.
    These rules, which went into effect immediately after they 
were issued, discriminate against women and their access to 
basic health care. The department you are nominated to lead has 
a role to play here because that department ensures that 
employers who refuse to cover birth control are still in 
compliance with the rules under the Employee Retirement Income 
Security Act, or ERISA. This includes making sure that if 
employers decide to deny their employees contraceptive 
coverage, that is clear in the plan documents.
    When we talked in my office you said you had not looked 
into these rules. So, Mr. Rutledge, I'd like you to commit to 
me that if you are confirmed, you will see to it that changes 
employers make under these rules are disclosed to plan 
participants and described in the plan documents so they have 
the information they need to make the decisions that are best 
for them.
    Mr. Rutledge. Senator Hassan, thank you for that question. 
We did have a good conversation about this in your office and 
in my role in the Committee at the moment. No, I have not read 
those regs. I did look at them quickly enough to realize they 
are what we call three-agency regs. It's Treasury, Labor, and 
HHS.
    I need to and I can commit that when I get to EBSA, if I'm 
fortunate enough to be confirmed, I will absolutely ask to be 
brought up to date and up to speed on what's happening on those 
regs and on the policies. Whether I can promise to have them 
changed to your satisfaction, I can't promise that.
    Senator Hassan. I'm not asking for a change. I'm asking 
that they follow the law and disclose plan changes that women 
should know about if they're deciding, for instance, whether to 
take a job with an employer who has an ERISA plan and who has 
decided at their own personal opinion or whim to deny a woman a 
benefit that she might be able to earn through another 
employer.
    Mr. Rutledge. I will confirm with the Solicitor's office, 
if that's the law, then I will see--I'll do my best to make 
sure that's enforced properly.
    Senator Hassan. Thank you.
    Mr. Zais, I wanted to come back to quotes we have seen from 
you concerning early childhood education, and I appreciated you 
coming to see me in my office as well. When you were running to 
be Superintendent of Education in South Carolina, you were 
quoted as saying that you did not believe in spending money on 
5-year-olds because they were too young to learn. Later, as 
Superintendent, you opposed increased funding for state pre-
school programs.
    A body of research shows that access to effective early 
learning programs can have a positive impact throughout a 
person's life, in addition to having one of the greatest 
returns on investment when deciding where to spend our limited 
public dollars.
    Can you please tell us what you meant when you said that 
you thought 5-year-olds are too young to learn?
    General Zais. Senator, if I ever said that, I do not recall 
having said that. As a grandfather of four children under the 
age of 5, I'm acutely aware that those children are learning at 
a rapid pace. I'm not opposed to early childhood education. I 
think it's a matter for the states to decide. Currently, one of 
my 2-year-old grandchildren is the recipient of some services 
under the Infant and Toddler provisions of IDEA, early 
childhood education, and I'm enormously grateful for that.
    Senator Hassan. Well, thank you for that. I would hope that 
you would consider the importance of Federal investment in 
early childhood education. It is incredibly important to our 
overall economy and preparation for the next generation on any 
number of levels.
    I am running out of time, so I will submit for the record 
questions to you, General Zais, and to Mr. Blew about voucher 
programs. I disagree with the premise of your statement, 
General Zais, that you either have to decide between the system 
or the student. We should have a system that works for all 
students, and in New Hampshire we work very hard on 
personalized education that works for all. The question will go 
along the lines of the degree to which vouchers take away 
critical resources from our public schools that often serve 
some of our most vulnerable children. So I'll look forward to 
your answers on that. Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Kaine.

                       Statement of Senator Kaine

    Senator Kaine. Thank you, Mr. Chair, and thank you to the 
witnesses.
    My voice is shot today, so excuse me. It's not painful, it 
just doesn't sound very good.
    I just want to begin with a comment, a concern. I had very 
good office visits with General Zais and Mr. Blew that I found 
productive. But I learned in both of those visits that they 
both used the phrase ``because of the firewall, I was not able 
to discuss that.'' In one instance I asked one of the 
individuals what their job description would be, and the answer 
was ``because of the firewall at the DOE, I was unable to have 
that discussion with officials at the DOE.'' In some other 
areas, what would your priorities be, what will you be working 
on, ``because of the firewall at the DOE, I am unable to 
discuss that.''
    They were not suggesting that they weren't telling me, but 
they were suggesting that they have not been read into things 
like their job description or what they're going to be asked to 
do. So it sort of made the point of my in-office interviews a 
little bit like, well, what can I ask you about if you've been 
nominated by the President but you haven't been read in on what 
your job description is or what you're going to be asked to do? 
I can read your bio. I'm more interested in what you're going 
to do.
    This is really a comment to the Chair and Ranking, and to 
DOE officials. If folks are going to come before us but there's 
a practice, apparently, in this agency not to read them in on 
their job description or what they're likely to do, it really 
hampers us in an oversight function in a confirmation hearing. 
It has not been my experience with nominees coming to my office 
from any other department, certainly not SAS nominees, SFRC 
nominees, State, Defense, Labor, other agencies. I'm able to 
ask people about their job description and what it is they 
intend to do. But in this case, if the Department was not 
preparing these individuals to be able to answer those 
questions and apparently felt there was some kind of a firewall 
that prohibited them from being able to do so, that sort of 
limits my ability to really delve.
    I do want to say to General Zais, I did appreciate our 
office visit yesterday. As somebody who has worked on both 
higher education in a South Carolina state commission over 
higher education, and K-12 education as the elected 
superintendent, you've worked at the state level. You've also 
been the president of an institution, a private college in 
South Carolina.
    Coming into this job, how do you see the role of the 
Federal Government in education matters as they affect school 
kids across the country?
    General Zais. Senator, I see the role of the Federal 
Government as to guarantee the civil rights of our students. 
I'm very grateful for the financial assistance that it provides 
to our students in our institutions of higher education. I 
think that the Department has a very important role in advising 
the states how to best comply with the laws established by 
Congress. But I don't believe in a one-size-fits-all education 
system. What works and makes sense in a rural state may not 
make sense in a more urban state, and I believe that states 
should best develop policies that meet their own unique 
circumstances.
    Senator Kaine. Let me just tackle each of the three items 
that you mentioned, and I completely agree with you on the last 
point. It shouldn't be one size fits all. But with respect to 
civil rights, the civil rights of students, those civil rights 
should be the same regardless of the zip code or jurisdiction 
where a student lives, correct?
    General Zais. Exactly.
    Senator Kaine. Then you indicated a Federal role was to 
provide financial assistance, and you appreciate that at the 
higher education level, but there's also financial assistance 
to states in pre-K and K-12 as well; isn't that correct?
    General Zais. That is correct, Senator.
    Senator Kaine. Then finally with respect to providing 
advice to states, would you view that advisory function as just 
providing advice about how to meet Federal law, or is it 
broader advice like best practices, things that are working 
here that you might want to consider, all with the goal of 
helping students achieve?
    General Zais. Senator, that's an important function. As 
State Superintendent, there wasn't one teacher, one principal, 
one superintendent, or one school board that worked for me. I 
didn't pass any laws, I didn't allocate any dollars. But I did 
have access to the media and to the public and used that as a 
forum to advocate for best practices and celebrate those, and 
for districts or schools that were not doing well, to highlight 
those publicly as well.
    Senator Kaine. Depending upon how your job description is 
fashioned, you would be willing and interested in doing the 
same thing in this position?
    General Zais. I think the parallel is clear, Senator.
    Senator Kaine. One final question. The Department, along 
with HHS, administers pre-school development grants as part of 
the ESSA rewrite. Virginia has been a recipient of those grants 
and has used it in significant ways to advance early learning 
to help kids achieve, to help them avoid dropping out, to help 
them identify early learning disabilities which, once 
identified, can often be rectified.
    You've made some statements in the past, even during your 
staff interviews, having some skepticism about early learning, 
citing studies. There are plenty of studies. I think the best 
research is that early learning is--investments in early 
learning are sound, but I recognize there are many studies. But 
will you, as an administrator with the Department of Education, 
administer the pre-school development grants to help the states 
who want them and who have them make the very most of them for 
the youngsters who are recipients of those pre-school programs?
    General Zais. Senator, I can assure you that if confirmed, 
I will work to ensure compliance with the law and make those 
dollars available to the states as specified in the statutes.
    Senator Kaine. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaine.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman. I want to thank the 
panel for being here today and for your testimony.
    I'll focus my questions to Mr. Blew for purposes of today. 
We're in and out of the hearing today because we're doing tax 
reform and some other things in another Committee.
    I wanted to start, Mr. Blew, with the question of public 
education. I come from a state where a statute was passed in 
the 1830's, the early 1830's, for free public schools. It was 
quite a debate in the 1830's, but thank goodness we have 
maintained it all these years in Pennsylvania.
    We have something on the order of 93 percent of all 
children in our state attending public schools. I think the 
national number is close to that, maybe 91 percent. One of the 
concerns that I had with then-nominee Betsy DeVos, now 
Secretary DeVos, was that she seemed to spend an inordinate 
amount of her time and her resources and her advocacy on behalf 
of for-profit institutions, for-profit charter schools. I come 
from a state where we have zero percent for-profit charter 
schools. We have charters, but they're all, by statute, non-
profit charters.
    She was in a state, to a certain degree because of her 
advocacy, where about 80 percent of the charters were for-
profit. So I said to Ms. DeVos in our discussion in my office, 
tell me more about your strategy, your plans for supporting 
public education and your advocacy on behalf of public schools. 
Her answer wasn't satisfactory, and I literally said to her--
and I wasn't doing it to try to use a one-liner. I just said if 
you're confirmed, you're not going to be the Secretary of 
Private Education, and I told her what the history in 
Pennsylvania was.
    In your case, you're seeking the position of Assistant 
Secretary for Planning, Evaluation and Policy Development, so 
you would obviously have a huge role in the planning and the 
vision of the Department, responsible for creating and 
implementing strategies to meet the goals of the 
Administration. You'd be taking on the Secretary's priorities, 
combining with existing policy, and marshalling the 
Department's resources to fulfill the law and meet the 
Administration's goals.
    In your opening you identified three areas--civil rights, 
vulnerable student populations, and accountability--for the 
billions of dollars spent in the Department.
    I guess I'd start with one question. I'll have more, I 
guess, in writing, in light of the time. But by virtue of the 
fact that the Secretary hasn't stated to my knowledge at any 
point in the last 9 months a priority for strengthening public 
schools, should one of the priorities of the U.S. Department of 
Education be to strengthen public schools?
    Mr. Blew. Senator, I look forward to answering more of your 
questions in writing. But, absolutely, yes.
    Senator Casey. How would you propose to do that?
    Mr. Blew. Part of how we do that is to execute the law that 
Congress has passed and that this Committee was critical in 
developing on the K-12 side. I'm talking about the ESSA.
    Senator Casey. That was a great bipartisan effort that 
Chairman Alexander and Ranking Member Murray led the way on, 
and we're grateful that they did that.
    The Secretary has also held up the Florida McKay 
Scholarship Program as a model both in her nomination hearings 
as well as in subsequent comments, and some private schools 
that accept McKay Scholarships require that students with 
disabilities relinquish their due process rights which are 
guaranteed under the Individuals with Disabilities Education 
Act. Do you think that a family should give up their right to 
due process to attend a private school?
    Mr. Blew. Again, I look forward to correspondence with you 
on this issue. There is a lot of confusion about it. Let me 
just make one critical point, that all schools that accept 
direct Federal dollars need to follow the law. They have to 
follow Federal law.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you all for your willingness to serve.
    Mr. Rutledge, last year this Committee and Congress passed 
the 21st Century Cures Act, which included in it some major 
reforms to the Nation's mental health law. Probably the most 
important of the reforms included in that section of the bill 
was one that built on the country's mental health parity law 
passed in 2008. This Committee recognized that while insurance 
companies technically stated that you had mental illness 
benefits comparative to physical illness benefits, the 
administration of those benefits was not equal. There was more 
red tape and bureaucracy being put up in front of people 
receiving mental health benefits than for non-mental health 
benefits.
    The Act gave a number of authorities to both HHS and to the 
Department of Labor, and the Administration has worked to 
implement some of these new requirements, like a convening of 
interested stakeholders to develop an action plan for improved 
coordination and enforcement.
    I just wanted to ask you if you're aware of the provisions 
that you would oversee in this new capacity related to mental 
health parity and if we can count on you to help implement the 
remaining portions of that law that the Administration has not 
moved forward with yet.
    Mr. Rutledge. Senator, thank you for your question. I am 
not particularly familiar at this moment with mental health 
parity. That has not been part of the practice I've ever had or 
any of the work I've ever done in government. But I do expect 
and demand that I be briefed on that as soon as I arrive. I do 
want to understand it. I very much understand the importance of 
mental health care. I have had experiences in my life where 
I've represented people who sought medical care for what they 
call soft-tissue issues, which are harder to diagnose, and 
blocks were thrown up in their path, and I helped people get 
over those.
    So although I'm not at the Department right now, I'm not 
familiar with what they're actually doing to implement this, 
implementing the law will certainly be EBSA's role, and what I 
can certainly commit to, although I cannot commit the 
Department to a position today since I'm not there, if I'm 
fortunate enough to be confirmed I can certainly commit that I 
will faithfully implement the law to the best of my ability, 
and that's the recommendation I will always have for Secretary 
Acosta.
    Senator Murphy. I look forward to working with you on this. 
Thank you for that answer, Mr. Rutledge.
    Mr. Rutledge. Thank you, Senator.
    Senator Murphy. General Zais, thank you for your 
willingness to serve as well. In 2015, the South Carolina 
legislature took up a bill called the Second Amendment 
Education Act, and there's reporting suggesting you were a 
supporter of that piece of legislation. I have no issue with 
school kids being taught about the Constitution or drilling 
down on particular parts of the Constitution, but one provision 
of this act required, and I quote: ``The State Superintendent 
of Education shall adopt a curriculum developed or recommended 
by the National Rifle Association.'' It does not seem 
appropriate to me that any political group should be able to 
write curriculum for our Nation's students.
    Let me ask you to speak for yourself with respect to your 
support of that legislation and ask you specifically whether 
you think that it's appropriate for political organizations to 
be given the power by law to write curriculum for America's 
students.
    General Zais. Senator, I did not support the adoption of 
the NRA curriculum. At one point I did say that students should 
be familiar with the Second Amendment. Of course, I support the 
law that says that students may not carry weapons to schools. I 
carried a weapon for many years as part of my job, and I know 
that weapons are not toys, and it's my belief that whether or 
not selected adults such as school resource officers are armed 
or not should be a decision made at the states.
    Senator Murphy. Okay. So, for the record, you did not 
support that legislation that I referenced?
    General Zais. That is correct, Senator.
    Senator Murphy. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    There may be Senators who have further questions, so let me 
start.
    General Zais, are you familiar with--usually people do this 
online, but do you know what this is?
    General Zais. Senator Alexander, could that be the free 
application for Federal student aid?
    The Chairman. Yes, that's what it is. Twenty million 
families fill it out, and there are a lot of us who would like 
to simplify it. Senators Bennet, Burr, King, and Booker have 
introduced legislation to do that--and Isakson.
    As a college president, what is your experience with the 
complexity of the Federal student aid application and the 
complexity of the student loan repayment plans? We have 
bipartisan legislation to simplify both of those.
    General Zais. Senator, I appreciate the question because 
I've struggled with the FAFSA as a college president for years. 
Not only is it difficult for families to complete that, and for 
students, it's difficult to train our financial aid counselors 
on the intricacies of that. A financial aid counselor, what 
you'll find in all institutions of higher education, turn over 
frequently. In many schools, particularly small schools like 
Newbury, where I was college president, it's an entry-level 
position, and for some families it was simply a bridge too far, 
particularly first-generation families where the parents were 
not well educated. To gather all that information was just too 
large of a task. Our financial aid counselors helped as well as 
they could, and I'm so happy that this whole process is under 
review.
    The student loan repayment process is complicated. There's 
conflicting procedures and processes for different kinds of 
loans, and I think it would be a great contribution to simplify 
those things.
    The Chairman. Our next major order of business is to review 
the Higher Education Authorization Act. We'll need to work with 
the Department to do that.
    I want to say to Mr. Blew--you mentioned the Walton 
family--how much I appreciate the contributions they've made to 
this country, especially for low-income children, especially to 
startup public schools, charter schools over the years, going 
back for a long time. So I thank them.
    Let me ask this of General Zais. There's always a lot of 
talk about vouchers here, it's a very explosive subject, but 
would you agree that a reasonable definition of a voucher would 
be a government scholarship or stipend that a student might 
spend at any accredited public or private institution?
    General Zais. I would agree, Senator. In fact, I think we 
have a similar system in many higher education institutions.
    The Chairman. Well, I was about to get to that. What would 
you call the scholarship--you're a brigadier general. In 1944 
we passed something called the GI Bill. So if soldiers coming 
home from World War II got a scholarship, they could spend it 
at any institution, public, private, or religious, that was 
accredited. Would you call that a voucher?
    General Zais. Yes, sir, I would.
    The Chairman. Today we have about $100 billion of student 
loans that we distribute every year which may be spent at any 
public or private or religious university that's accredited. 
Would you call that a voucher?
    General Zais. I would, sir.
    The Chairman. We have about $34 billion of Pell Grants that 
we spend, that students may spend at any public, private, or 
religious institution that's accredited. Would you call that a 
voucher?
    General Zais. I would, sir.
    The Chairman. We have about $8 billion of funding that we 
give to states for low-income mothers to choose a pre-school 
program for their children that may be spent at any public, 
private, or religious accredited institution. Would you call 
that a voucher?
    General Zais. Yes, Senator, I would.
    The Chairman. Would you conclude from that that vouchers by 
themselves might not be a bad idea since those are some of the 
most popular and effective social programs our country has ever 
passed?
    General Zais. I agree.
    The Chairman. Would you also agree that the Federal law 
does not allow the U.S. Department of Education to require any 
state to use Federal funds as a voucher that may be used as a 
private school, that might be your opinion, but the Federal law 
doesn't permit you to mandate that of any state?
    General Zais. Senator, the Federal law is clear in that 
regard.
    The Chairman. Thank you. Thank you, General.
    Senator Murray.
    Senator Murray. Mr. Rutledge, I understand you have 
expressed your ``discomfort'' with the fiduciary rule. That is 
a rule that simply requires that retirement savers are given 
advice in their best interest.
    As you know, President Trump issued a memorandum directing 
the Department to review that rule, and in response the 
Department has proposed a second delay. Given that conflicted 
advice costs our retirement savers about $17 billion annually, 
do you support delaying this rule in order to conduct a study 
that was already completed as part of the regulatory impact 
analysis last year?
    Mr. Rutledge. Senator, thank you for that question. I'm not 
at the Department right now, and I can't, of course, commit the 
Department to a position on how to proceed on that rule. I have 
reviewed the Presidential memorandum, and it appears to me to 
direct the Department to review the rule, but to review it from 
the perspective like ERISA has always been in my experience, 
from the perspective of the investor, the participant, the 
worker, the retiree, are you sure you're not hurting those 
people. ERISA is very participant centered.
    I would also like, if I may, since you mentioned the quote 
from that news article, I've never said I have discomfort with 
the fiduciary rule. What I was saying at the time was the 
Department of the Treasury was not involved at the time, and 
with ERISA a lot of the rules are two agency, Treasury as well 
as Department of Labor. In the case of a prospective violation 
of that rule, it would have triggered the necessity of the IRS 
to assess excise taxes, and there were those of us on the 
staff, and Chairman Hatch shared our view, that Treasury ought 
to at least be at the table if this rule was going to create 
additional work for them.
    That was the discomfort. It wasn't about the rule. It was 
about the fact that Treasury didn't seem to be involved as far 
as we could tell.
    Senator Murray. Well, that rule did go through an extensive 
process, so I just want to make that clear.
    General Zais, let me come back to you. As you know, 2 years 
ago Congress passed the Every Student Succeeds Act, ESSA. It 
provides states with additional flexibility, but it maintains 
some very strong Federal guardrails for accountability, which 
is really important to our taxpayers. When they spend their tax 
dollars, they want to know that there's accountability, and we 
heard that throughout our process.
    When you were the State Superintendent of Education in 
South Carolina, you actually wrote an op-ed supporting a 
proposal that would have gutted our Nation's K-12 education law 
and left very few protections in place for our students and our 
families and our taxpayers.
    Now, ESSA has made some requirements related to the design 
of state accountability systems, subgroup accountability, and 
evidence-based interventions in low-performing schools. But 
under Secretary DeVos the Department has now approved state 
plans that do not comply with all of ESSA's guardrails, an 
important part of that law, and I wanted to ask you, if you're 
confirmed, because you'll be in a position to correct those 
flaws, will you enforce ESSA as written, including all the 
Federal guardrails that are written into it?
    General Zais. Senator, I'm unaware of the specifics of any 
cases where plans have been approved that do not conform with 
the law. But I can assure you that if confirmed, I will work to 
ensure that the Federal law as specified in ESSA is followed.
    Senator Murray. Okay. I will follow up with a question for 
the record. That's really important to us.
    Mr. Blew, my last question to you. We all know that 
Secretary DeVos was one of the architects of Detroit's charter 
school system, which even the charter school advocates have 
called ``the biggest school reform disaster in the country.'' 
In Michigan, charter school authorizers faced no accountability 
for their performance. The sector has very high rates of 
financial corruption and mismanagement, and the results have 
been disastrous for children.
    You have spent your career advocating for charter school 
expansion, and I know that while you were at the Walton Family 
Foundation you contributed hundreds of thousands of dollars to 
groups that pushed Secretary DeVos' agenda on this, and I 
wanted to ask you, do you think Michigan is a good example of 
what an effective charter school system looks like?
    Mr. Blew. Senator, one of my beliefs is the importance of 
accountability in education. Michigan, as you may know, has 
made many improvements in its laws in the last couple of years, 
holding authorizers and schools themselves more accountable. I 
do want to say that the characterization of the charter school 
sector in Detroit as being a disaster seems unfair. The most 
reliable studies are saying that, indeed, the charter school 
students out-perform the district students.
    Senator Murray. Actually, Michigan's achievement rates have 
plummeted for all kids. But in addition, charter schools in 
Michigan are performing worse than traditional public schools. 
As I said, even charter school advocates are saying it's the 
biggest school reform disaster in the country. Are you aware of 
that?
    Mr. Blew. I'm aware of the studies you're talking about. 
The most reliable studies do show that the charter school 
students in Detroit out-perform their peers in the district 
schools.
    Senator Murray. I would like to see that, because that's 
not the data that we have.
    Mr. Blew. I will be happy to get it for you. It's done by 
the Stanford Credo operation.
    Senator Murray. I'm not aware of that organization.
    Mr. Blew. Stanford University. I'm sorry.
    Senator Murray. I'm out of time.
    The Chairman.
    Senator Franken.
    Senator Franken. Thank you again.
    General Zais, you said in response to Senator Kaine that 
your job as Deputy Secretary is to protect the civil rights of 
students. LGBT students deserve to learn in an environment free 
from discrimination, and they deserve to be treated with 
dignity and respect. But far too often LGBT kids, particularly 
transgender kids, endure harassment and discrimination. When 
that happens, those students are deprived of an equal 
education.
    In May, the Seventh Circuit ruled in favor of a transgender 
boy named Ash Whitaker whose school wouldn't let him use the 
boy's bathroom. The court ruled that the school's 
discriminatory bathroom policy violated Title 9 and the 
Fourteenth Amendment. It's unfortunate that the Trump 
administration scrapped guidelines written by the Obama 
administration that instructed schools on how to protect 
transgender students under Title 9. But rescinding the guidance 
didn't change the law, and it didn't take away students' 
rights.
    Dr. Zais, when a school administrator tells a boy like Ash 
that he can't use the same bathroom as all the other boys in 
his class, that student feels intimidated and shamed. You can't 
learn if you dread going to school. But Title 9 protects these 
students. The Department of Education should enforce it. If a 
transgender student files a complaint under Title 9 alleging 
unequal access, would you advise the Office for Civil Rights to 
investigate?
    General Zais. Senator, I believe firmly that no child 
should be subjected to bullying, abuse, or intimidation, and 
that includes transgender students.
    In terms of the legal rights, as I understand it that is 
now being litigated, and since it's in the court system, I 
don't know that it would be appropriate for me to----
    Senator Franken. The 7th Circuit ruled in favor of Ash 
Whitaker. It was just in May, and I think that's now the law.
    General Zais. I don't know that LGBT is a protected class 
currently. But I can tell you that, if confirmed, I will work 
to comply with all aspects of the Federal law.
    Senator Franken. Well, that is the law, so you will enforce 
it.
    General Zais. I will work with you and the Secretary. Right 
now I'm unclear as to what exactly the law is.
    Senator Franken. Okay. Let me move on.
    Over 15 percent of all Federal financial aid goes to 
students attending for-profit colleges and universities. While 
there are some very good actors in the for-profit sector, many 
of these institutions have been putting their own financial 
gains above the best interests of their students. Over the last 
several years tens of thousands of students throughout the 
country have been victims of fraud and predatory lending 
practices by for-profit institutions. In my home state of 
Minnesota, Globe University and Minnesota School of Business 
are two examples of institutions whose fraudulent activities 
have left their students deep in debt with worthless degrees 
and futures compromised by bad credit.
    I have written multiple letters urging the Department of 
Education to take action against these for-profit institutions 
and to help students get the debt relief that they deserve.
    Dr. Zais, if you are confirmed as Deputy Secretary of 
Education, are you committed to ensuring that students who have 
been victims of fraudulent behavior receive the debt relief 
that they deserve by processing all current and future claims 
from students eligible to have their loans discharged?
    General Zais. Senator, first of all, I'm very sensitive to 
the fact that there are a number of institutions that have 
engaged in fraud and deceptive advertising. I'm particularly 
sensitive because many of these people are veterans who have 
been taken advantage of.
    Senator Franken. Right.
    General Zais. I understand that there's a negotiated 
rulemaking process in progress right now, but I definitely 
intend to look out for the interests of what tend to be our 
most vulnerable students in higher education.
    Senator Franken. Thank you. By the way, the highest-ranking 
Jew in the military is currently the Comptroller of the Coast 
Guard.
    That's a joke. I don't know. That's anecdotal.
    [Laughter.]
    The Chairman. Thank you, Senator Franken.
    Senator Hassan.
    Senator Hassan. It's always a little tricky to follow 
Senator Franken. I'm not about to try.
    [Laughter.]
    Senator Hassan. General Zais, can you tell us about when 
the United States had a public education system for all 
elementary school students, by about what year?
    General Zais. No, Senator, I don't know the year.
    Senator Hassan. Okay. My quick research just now tells me 
that by about 1870 all states had a public education system 
paid for with tax dollars, by about 1870. After that, I assume 
you would agree that we had a public education system for 
elementary and then eventually high school that served all of 
our kids. Is that a fair statement?
    General Zais. That's my understanding. That's correct.
    Senator Hassan. Okay. So when the GI Bill came along in 
1944, though, we didn't have a public higher education system 
that could absorb all the GIs. Is that fair?
    General Zais. Well, Senator, I don't know what the capacity 
of our higher education system was in 1944.
    Senator Hassan. But we certainly didn't have the assumption 
that all of our graduates from high school would be going to 
higher education before 1944. Is that a fair statement?
    General Zais. That's a fair statement.
    Senator Hassan. Okay. So that gets me back to the issue of 
my concerns about vouchers in particular. I will tell you that 
as Governor of New Hampshire I supported strategically 
authorized, accountable public charter schools because I think 
it's very important to have innovation in the public school 
system, and I think charter schools are a very good way to do 
that.
    But the concern I have about vouchers is that they take 
taxpayer dollars, giving them to parents who often can afford 
to make up the difference that the voucher doesn't pay for 
toward a private school tuition or, for instance, for 
transportation expense. My concern is what that does to the 
public schools.
    Both you and Mr. Blew--and, Mr. Blew, I'd be pleased to 
hear your response to this question too--you both talk about 
helping students leaving so-called failing schools. But do you 
agree that when you de-fund public schools, that can lead to 
those schools having to make difficult decisions about cutting 
curriculum, teacher capacity, and other services?
    I'll start with you, General Zais.
    General Zais. I know that when--we haven't had vouchers in 
South Carolina. But I know that when students left their 
traditional public school to attend a public charter school, 
that actually more money went to the traditional public school.
    Senator Hassan. But that generally hasn't been the way it 
has worked. One of the concerns I've got is you look at a 
family that can't afford the transportation expense or the 
difference between the private school tuition and the voucher, 
and now that child and that family is left in a public school 
with fewer and fewer resources. When you also add to the fact 
that children with disabilities, particularly severe 
disabilities, are often ineligible for vouchers because there 
aren't private schools that can provide them the quality 
education that they deserve, that you are increasingly draining 
resources from the schools that are left to deal with our most 
vulnerable and disadvantaged students.
    Mr. Blew, maybe you can answer this. How do voucher 
programs or proponents of voucher programs address that issue?
    Mr. Blew. Let me make a couple of points on this. First of 
all, Senator Murray pointed out there is no Federal voucher 
program in place right now.
    Senator Hassan. No, but you're talking about going to work 
for a Secretary of Education who has been a major proponent of 
one, and a president who says he wants to spend $20 billion on 
it.
    Mr. Blew. The Secretary also has said publicly and 
repeatedly that she does not favor a Federal voucher program 
being imposed on the states. She believes that that's something 
that locals should consider, as you did in New Hampshire, for 
themselves.
    Senator Hassan. Except that there will be Federal dollars 
available for it, taking away Federal dollars for other 
education resources. If the President is going to devote $20 
billion, states are likely to be incentivized to apply for it.
    Let me just move on to one last question, which is that 
there are particular examples in news reports of families who 
have children with disabilities who use a voucher, sign away 
their rights, and discover that after some time in the private 
school, having been promised that the school was qualified in 
educating their child, that they aren't. In at least one case, 
a child was put in seclusion, segregated from his peers, and 
now he has no legal rights and can't necessarily get back into 
the public school right away.
    Tell me why it is that voucher proponents think that 
draining resources and splintering school systems is going to 
help children with disabilities.
    Mr. Blew. Senator, I'm not aware of the specific 
circumstance you raised. I can tell you the law is very clear 
on this, that the local education agency is responsible for 
providing a free and public education. So the comment that they 
couldn't go back to the public school----
    Senator Hassan. Not right away, right? They've waived a lot 
of their resources. I'll give you the article that outlines 
what happened to this family in the McKay, Florida system.
    Mr. Blew. Yes, and I think it's very important for me and 
everyone to be aware of these examples. It's also important to 
understand that there are 30,000 parents now in that program in 
Florida. It's grown tremendously since 2006, and most parents 
are overwhelmingly happy, satisfied with the services they're 
getting compared to what they would have had in the traditional 
system.
    Senator Hassan. I thank you for that comment. I'm well over 
my time. I would just add that there are thousands of students 
left in public schools that aren't happy, in part because they 
don't have the resources that they might have had if we had all 
focused on making those public school systems serve every 
student.
    Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Murray, do you have----
    Senator Murray. Mr. Chairman, I just would like unanimous 
consent to enter into the record a letter from early childhood 
education organizations regarding the nomination of General 
Zais.
    The Chairman. Thank you, Senator Murray.
    The Chairman. I ask consent to introduce six letters of 
support for Preston Rutledge, including a letter from Senator 
Hatch. I ask consent to introduce one letter of support for 
Kate O'Scannlain into the record.
    Those will be entered under Additional Material.
    The Chairman. If Senators wish to ask additional questions 
of the nominees, questions for the record are due by 5 p.m. 
Friday, November 17. For all other matters, the hearing record 
will remain open for 10 days. Members may submit additional 
information for the record within that time.
    Thank you for being here today. We appreciate the witnesses 
attending. We thank the families for coming.
    The Committee will stand adjourned.
    [Additional Material Follows:]

                          ADDITIONAL MATERIAL

                letters of support for preston rutledge
                         American Benefits Council,
                                             Washington DC,
                                                 November 15, 2017.
Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC.
    Dear Chairman Alexander and Ranking Member Murray: I am writing to 
strongly support the confirmation of Preston Rutledge as the Assistant 
Secretary of Labor for the Employee Benefits Security Administration 
(EBSA). The American Benefits Council (Council) represents companies 
and other organizations that either directly sponsor, or provide 
services to, virtually all of the Nation's employer-sponsored health 
and retirement plans.
    Over a period of many years, in a variety of different capacities, 
Mr. Rutledge had demonstrated that he has the qualities needed to lead 
EBSA in a manner that will enhance personal financial security provided 
through the employer sponsored benefits system--the source of 
retirement and health coverage for the vast majority of Americans.
    Mr. Rutledge has already had a distinguished career, most recently 
as Tax Counsel serving the Senate Finance Committee. In this position, 
he has shown a great ability to bring people together to achieve the 
goals of various stakeholders in the employee benefits system.
    Mr. Rutledge's skills as a public servant were exemplified by the 
valuable role he played in supporting the Members of the Finance 
Committee as they worked toward unanimous passage of the Retirement 
Enhancement and Savings Act of 2016. This landmark bill would break 
major new ground in serving retirement income security and retirement 
plan innovation. Senators of both parties appreciated Mr. Rutledge's 
expertise and tireless efforts to help the Committee achieve this 
important bipartisan accomplishment.
    At EBSA, among his many responsibilities, Mr. Rutledge would be 
called upon to fairly balance the concerns and priorities of the myriad 
stakeholders who play a role in the U.S. employee benefits system. 
Foremost, of course, are the interests of the millions of Americans who 
rely upon a strong employer-sponsored benefits system for their 
financial security. As representatives of the companies and 
organizations whose creativity, dedication and substantial financial 
investment make possible that system, the Council is confident Mr. 
Rutledge will approach his duties with the same expertise, fairness, 
receptivity to hearing diverse views, and courtesy that he has 
displayed in the public service roles in which he has served.
    We strongly support Mr. Rutledge's confirmation and thank you for 
considering our views.
            Sincerely,
                                 James A. Klein, President,
                                         American Benefits Council.
                                 ______
                                 
                                                 November 14, 2017.
Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington DC.

    Dear Chairman Alexander and Ranking Member Murray: The undersigned 
associations write in support for Preston Rutledge to be confirmed as 
Assistant Secretary of Labor for the Employee Benefits Security 
Administration (EBSA).
    Mr. Rutledge has led a distinguished career in public service, and 
has a proven track record of working in a collaborative and bipartisan 
manner. As an expert in retirement policy, employee benefits, executive 
compensation, and the tax treatment of life and health insurance, his 
background makes him uniquely qualified to lead EBSA.
    During his time as Tax and Benefits Counsel on the Majority Tax 
Staff of the Senate Finance Committee, many of us have worked with Mr. 
Rutledge to advance legislation important to the retirement community 
at large. These efforts include the Secure Annuities for Employee 
(SAFE) Retirement Act, the Retirement Enhancement and Savings Act 
(RESA), the Miners Protection Act (MPA), and the 2015 Tax Reform 
Working Group on Savings and Investment. These bills reflect various 
perspectives and illustrate his commitment to work across the aisle to 
achieve outcomes favorable for different types of workers and their 
employers.
    We appreciate your consideration of Mr. Rutledge to serve in this 
important role. We strongly urge Members of the Committee to act 
swiftly and positively on his nomination.

            Signed,

American Council of Life Insurers, Association for Advanced 
       Life Underwriting, American Retirement Association, 
Committee on Investment of Employee Benefit Assets, Defined 
        Contribution Institutional Investment Association, 
          Financial Services Institute, Financial Services 
      Roundtable, Insured Retirement Institute, Investment 
  Company Institute, National Association of Insurance and 
  Financial Advisors, National Association of Professional 
          Employer Organizations, NTCA-The Rural Broadband 
  Association, Plan Sponsor Council of America, Retirement 
       Industry Trust Association, Securities Industry and 
  Financial Markets Association, Small Business Council of 
     America, Small Business Legislative Council, The ESOP 
     Association, The SPARK Institute, and U.S. Chamber of 
                                                  Commerce.
                                 ______
                                 
                      Insured Retirement Institute,
                                            Washington, DC,
                                                 November 13, 2017.
Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of our 
member companies, the Insured Retirement Institute (IRl)\1\, is honored 
and privileged to write to you to state our support for the expeditious 
confirmation of Preston Rutledge to serve as Assistant Secretary of 
Labor for the Employee Benefits Security Administration at the United 
States Department of Labor. Mr. Rutledge has been an outstanding 
champion for common-sense solutions to increase retirement security for 
all Americans and in this position, he would continue to serve as a 
strong advocate for Americans to plan earlier and save more for their 
retirement.
---------------------------------------------------------------------------
    \1\ The Insured Retirement Institute (IRI) is the leading 
association for the retirement income industry. IRI proudly leads a 
national consumer coalition of 40 organizations, and is the only 
association that represents the entire supply chain of insured 
retirement strategies. IRI members are the major insurers, asset 
managers, broker-dealers/distributors, and 150,000 financial 
professionals. As a not-for-profit organization, IRI provides an 
objective forum for communication and education, and advocates for the 
sustainable retirement solutions Americans need to help achieve a 
secure and dignified retirement. earn more at www.irionline.org.
---------------------------------------------------------------------------
    Mr. Rutledge has a distinguished record of public service to our 
Nation, starting with his service as an Officer in the U.S. Navy and 
all throughout his career up until his current service as the Tax and 
Benefits Counsel on the Republican Tax Staff of the Senate Finance 
Committee. He has been active during his time with Senate Finance in 
working to enact legislation that would help Americans to achieve 
financial security in their retirement years. Mr. Rutledge has been a 
strong proponent of finding solutions for Americans to insure against 
the risk of outliving their assets and has promoted policies to support 
retirement financial planning by recognizing the value of products 
providing retirees with guaranteed lifetime income.
    Most recently, Mr. Rutledge was one of the prime Senate staff 
architects who drafted the Retirement Enhancement and Savings Act. He 
then played an instrumental role in garnering bipartisan support for 
the bill, culminating last November in a unanimous vote in favor by 
Senate Finance Committee. IRI enthusiastically supported this bill as 
it made significant strides toward helping Americans overcome the 
barriers to a financially secure retirement. It contained bipartisan 
measures to: expand access to workplace retirement plans by encouraging 
the use of multiple employer plans (MEPs); increase access to lifetime 
income strategies that help retirees ensure they do not outlive their 
financial assets in retirement; provide certainty to plan sponsors 
regarding the selection of a lifetime income provider; enable annuity 
portability; and require benefit plan statements to include lifetime 
income estimates.
    The common-sense solutions of this legislation, are ones that IRI 
has long-endorsed and actively advocated for their passage. With Mr. 
Rutledge, serving in this position at the Department of Labor, we are 
confident with his knowledge about and passion for retirement security, 
we can work together to turn these policy proposals into reality and 
help more Americans plan for and attain a financially secure 
retirement.
    The current state of retirement savings readiness in America is at 
crisis levels and the need for dedicated and passionate leadership on 
this has never been greater. We believe Mr. Rutledge can provide that 
leadership.
    For these reasons, on behalf of IRI and its member companies, I am 
pleased to express our wholehearted , steadfast and strong support for 
Preston Rutledge to be confirmed as the next Assistant Secretary for 
the Employee Benefits Security Administration at the United States 
Department of Labor. We urge all the Members of this Committee to act 
expeditiously to vote in favor of his nomination and move his 
confirmation forward to the full Senate for its consideration and 
action.

            Sincerely,
                    Catherine Weatherford, President & CEO,
                                      Insured Retirement Institute.
                                 ______
                                 
   National Association of Insurance and Financial 
                                          Advisors,
                                           Falls Church VA,
                                                 November 13, 2017.
Hon. Lamar Alexander, Chairman,
Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Association of lnsurance and Financial Advisors (NAIFA) strongly 
supports the confirmation of Preston Rutledge to serve as Assistant 
Secretary of Labor for the Employee Benefits Security Administration at 
the United States Department of Labor. Mr. Rutledge's knowledge and 
experience in working with retirement, health and disability issues has 
resulted in improvements to the overall security for all Americans and 
therefore NAIFA urges the Committee to vote in favor of his nomination 
and move his confirmation forward promptly.
    NAIFA Members--comprised primarily of insurance agents, many of 
whom are also registered representatives--are Main Street advisors\1\ 
who serve primarily middle-market clients, including individuals and 
small businesses. NAIFA Members help families manage the risks of dying 
prematurely or outliving savings, and assist in early planning to 
achieve their personal retirement goals. Having robust, saver-friendly 
employer-sponsored programs is a critical component to overall 
financial security and retirement readiness. We believe Mr. Rutledge's 
leadership in the Employee Benefits Security Administration will result 
in long-term improvements to employee benefits programs.
---------------------------------------------------------------------------
    \1\ About NAIFA: Founded in 1890 as The National Association of 
Life Underwriters (NALU), NAIFA is one of the Nation's oldest and 
largest associations representing the interests of insurance 
professionals from every Congressional district in the United States. 
NAIFA Members assist consumers by focusing their practices on one or 
more of the following: life insurance and annuities, health insurance 
and employee benefits, multiline, and financial advising and 
investments. NAIFA's mission is to advocate for a positive legislative 
and regulatory environment, enhance business and professional skills, 
and promote the ethical conduct of its Members.
---------------------------------------------------------------------------
    NAIFA looks forward to working with the Committee and with the 
Department of Labor to enhance the financial security of American 
families. Please contact NA IFA Government Relations Assistant Vice 
President Judi Carsrud (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed4dddfcccdcccbdafed0dfd7d8df90d1ccd9">[email&#160;protected]</a>) with any questions.

            Sincerely,
                                       Kevin M. Mayeux, CAE
                                                        CEO, NAIFA.
                                 ______
                                 
                              United States Senate,
                              Committee on Finance,
                                                 November 15, 2017.
Hon. Lamar Alexander, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.

    Dear Chairman Alexander: I am writing to express my support for the 
nomination of Preston Rutledge to be the Assistant Secretary of Labor 
for the Employee Benefits Security Administration (EBSA). His 
nomination iscurrently before the Senate Committee on Health, 
Education, Labor and Pensions.
    For nearly seven years, Mr. Rutledge has been a valued Member of 
the Senate FinanceCommittee staff. Throughout that time, I have been 
very fortunate to have him on my team. I cannot think of a more 
qualified candidate for this position.
    Mr. Rutledge is an experienced attorney with a knack for tax policy 
and ERISA issues. His knowledge of issues dealing with employee 
benefits is unsurpassed and, throughout out his tenure on the Finance 
Committee, he has demonstrated his ability to work with Members and 
offices from both sides of the aisle to advance reforms to our Nation's 
pension and savings programs, helping to ensure a more stable and 
reliable retirement savings system.
    Two examples of his success include the Retirement Enhancement & 
Savings Act, as well as the ABLE Act which provided savings 
enhancements for children with disabilities.
    Preston is a dedicated public servant with an outstanding track 
record to prove it. As a teenager he worked in our national forests, 
and later proudly served as an officer in the U.S. Navy. Later, he was 
alaw clerk on the U.S. Circuit Court of Appeals for the 5111 Circuit 
and spent over a decade with the Internal Revenue Service focused on 
employee benefits and tax-exempt organizations.
    Between his experience and impeccable character, I am confident 
that Preston is well equipped to tackle the tough issues that lie ahead 
for EBSA. There is no one else that I know of who would do a better 
job. I am confident that Preston's open-minded and inclusive approaches 
to problem-solving will serve to improve our Nation's benefits and 
retirement for workers across the country.
    Make no mistake, Preston's talents and good humor will be missed on 
the Finance Committee. However, I share the president's view that he is 
the person best equipped to address the issues facing the EBSA at this 
time. I heartily support this nomination.

            Sincerely,
                                            Orrin G. Hatch,
                             Chairman, Senate Committee on Finance.
                                 ______
                                 
                 letter of support for kate o'scannlain
                                                 November 10, 2017.
Hon. Lamar Alexander Chairman,
Hon. Patty Murray,
Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC.

    Dear Chairman Alexander and Ranking Member Murray: We write in 
emphatic support of Kate O'Scannlain's nomination to serve as Solicitor 
of Labor, the highest legal position in the Department of Labor. 
Although we all have worked with Ms. 0'Scannlain as partners and 
colleagues at Kirkland & Ellis LLP, we write this letter of support in 
our personal capacity.
    For many years, each of us has worked with and alongside Ms. 
O'Scannlain. While we have worked on different matters together and in 
various contexts, our opinions are the same. Ms. O'Scannlain is a true 
professional, a superb lawyer, a gracious colleague, and an ethical and 
honorable person. Ms. O'Scannlain is a litigator and also has a broad 
range of knowledge and experience with employment, labor and compliance 
issues in business sales, acquisitions, and restructurings. Her focus 
has been on identification and assessment of issues, consideration of 
all points of view, and their thoughtful, fair and practical 
resolution. Importantly, she is even-tempered, and with solid and 
excellent judgment. She is organized, thoughtful, respectful, and 
respected. She is exactly the type of person needed for the broad range 
of legal, administrative and enforcement responsibilities of Solicitor 
of Labor.
    Across the Firm, Ms. O'Scannlain treats everyone with dignity and 
respect. She is courteous and patient no matter with whom she 
interacts. Ms. O'Scannlain is known for her collegial demeanor and 
collaborative style. She mentors associates and has been instrumental 
in the firm's diversity initiatives.
    Ms. O'Scannlain's work at Kirkland & Ellis has included pro bono 
representation of a variety of indigent and not-for-profit clients on 
diverse matters, including the obtaining of Combat Related Special 
Compensation for a disabled Operation Iraqi Freedom veteran. She is a 
regular volunteer at the Archdiocesan Legal Aid Clinic of Washington, 
DC. Every year since 2008, Kate has won the Kirkland & Ellis Pro Bono 
Service award for her commitment to pro bono service; in three of those 
years, she performed over 100 hours of pro bono work.
    Outside of our law firm, Ms. O'Scannlain also serves on the Notre 
Dame Law Advisory Board. She has served on other boards affiliated with 
the University of Notre Dame, including the advisory board of a 
Washington, DC school educating underserved students on Capitol Hill. 
Ms. O'Scannlain has also served in leadership roles at her children's 
school and is active in her parish.
    Our support for Ms. 0'Scannlain is not driven by politics. We are 
Democrats, Republicans, and Independents, and hold views across the 
political spectrum. Even though some of us may disagree with the 
policies and politics of this Administration, we all are united in our 
view that Ms. O'Scannlain is fair, intellectually honest, and 
judicious--a person of great integrity. In short, the President has 
nominated an excellent choice for Solicitor of Labor. We encourage her 
swift confirmation.

            Respectfully,

    Allen Winn, Eugene Assaf, Daniel F. Atlridge, James P. 
Gillespie, Boyd H. Greene, Michael A. Glick,Mario Mancuso, 
Dianne McClanahan, Michael W. McConnell, Zachary Avallone, 
 Gottschalk Tom, Scott M. Metzger, Amy M. Balkema, Patrick 
       Haney, Mihalas Alexandra, Christopher Bartolomucci, 
 Catalina Benech, Liam Patrick Hardy, Amanda Hayes, Lauren 
       A. Mitchell-Dawson, Christopher F. Mizzo, Robert M. 
  Bernstein, Andrew M. Herman, Patrick Montgomery, Heather 
   Bloom, Stephen E. Hessler, Erin E. Murphy, Marin Boney, 
 George W. Hicks, Linda K. Myers, Daniel A. Bress, Vanessa 
   Higareda, Ragan Naresh, Chris Chase, Edward Holzwanger, 
   Bridgette O'Connor, Michael Chiswick-Patterson, Lisa A. 
      Horton, John C. O'Quinn, Toby Chun, Hughes Emily P., 
Patrick F. Philbin, Jeffrey Clark, Elena Ionita, Evangelia 
  Podaras, Andrew Clubok, John S. Irving, Craig S. Primis, 
 Asteena Corren, Ellen M. Jakovic, Jeffrey S. Quinn, Adria 
    M. Crowe, Jonathan D. Janow, Joanna M. Ritcey-Donohue, 
Sabine Curto, Erin C. Johnston, Robert S. Ryland, Elizabeth 
Dalmut, Sydney Jones, Mia Sathia, Wendell Daniels, Matthew 
  D. Keiser, Deborah Scarcella, Susan Davies, LaWan Keith, 
 Michael A. Schulman, Devin A. DeBacker, Jonathon Kidwell, 
Michael Shumsky, Joseph J. DeSanctis, Patrick J. King, Anne 
     McClain Sidrys, Viet D. Dinh, Caron Kline, R. Timothy 
       Stephenson, Mark D. Director, Olivia Kwok, Bryan M. 
Stephany, Stuart Drake, Chris Landau, Thomas Yannucci, Gary 
   A. Duncan, Susan E. Engel, William Lane, Andrew Langan, 
 Scott J. Vail, Sara Webber, Katherine Espiritu, Alexandra 
Farmer, Christa J. Laser, Abigail E. Lauer, Thomas P. Weir, 
Jason Wilcox, Peter A. Farrell, Kenneth R. Lench, Erica Y. 
 Williams, Mark Filip, Jennifer Levy, Michael F. Williams, 
 Pamela Gagliardi, Walter H. Lohmann, Megan Wold, Jonathan 
f. Ganter, Jay B. Stephens, Jodi Wu, Robert R. Gasaway, and 
                                             Nathan Mammen.

    [Whereupon, at 4:08 p.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
